<html>
<title> - ASSESSING THE SECURITY NEEDS OF THE WEST</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                ASSESSING THE SECURITY NEEDS OF THE WEST

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON INTELLIGENCE AND
                            COUNTERTERRORISM

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 21, 2003

                               __________

                           Serial No. 108-22

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
97-777                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012004


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York            New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                    District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, JR., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona               U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff

         UTTAM DHILLON, Chief Counsel and Deputy Staff Director

               DAVID H. SCHANZER, Democrat Staff Director

                    MICHAEL S. TWINCHEK, Chief Clerk

                                 ______

           Subcommittee on Intelligence and Counterterrorism

                     JIM GIBBONS, Nevada, Chairman

JOHN SWEENEY, New York, Vice         KAREN McCARTHY, Missouri
Chairman                             EDWARD J. MARKEY, Massachusetts
JENNIFER DUNN, Washington            NORMAN D. DICKS, Washington
C.W. BILL YOUNG, Florida             BARNEY FRANK, Massachusetts
HAROLD ROGERS, Kentucky              JANE HARMAN, California
CHRISTOPHER SHAYS, Connecticut       NITA M. LOWEY, New York
LAMAR SMITH, Texas                   ROBERT E. ANDREWS, New Jersey
PORTER GOSS, Florida                 ELEANOR HOLMES NORTON,
PETER KING, New York                   District of Columbia
JOHN LINDER, Georgia                 JAMES R. LANGEVIN, Rhode Island
JOHN SHADEGG, Arizona                KENDRICK B. MEEK, Florida
MAC THORNBERRY, Texas                JIM TURNER, TEXAS, ex officio
CHRISTOPHER COX, California, ex 
officio

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

The Honorable Jim Gibbons, Chairman, Subcommittee on Intelligence 
  and Counterterrorism, and a Representative in Congress From the 
  State of Nevada................................................     1
The Honorable Shelley Berkley, a Representative in Congress From 
  the State of Nevada............................................     7
The Honorable John B. Shadegg, a Representative in Congress From 
  the State of Arizona...........................................     1
The Honorable Jon C. Porter, a Representative in Congress From 
  the State of Nevada............................................    12

                               WITNESSES

Mr. Jerry Bussell, Special Advisor to Governor, Nevada Homeland 
  Security Office
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Dr. Dale Carrison, Emergency Department Medical Director, 
  University Medical Center, Trauma Center,
  Oral Statement.................................................    47
  Prepared Statement.............................................    50
Mr. Bill Conger, Deputy Chief, Las Vegas Metropolitan Police 
  Department
  Oral Statement.................................................    51
  Prepared Statement.............................................    53
Mr. Frank F. Navarrete, Director, Arizona Office of Homeland 
  Security to the House Select Committee on Homeland Security....     2
Mr. William H. Parrish, Assistant Secretary for Information 
  Analysis, Information Analysis and Infrastructure Protection 
  Directorate
  Oral Statement.................................................    14
  Prepared Statement.............................................    10
Mr. David Shepherd, Head of Security, Venetian Resort
  Oral Statement.................................................    36
  Prepared Statement.............................................    39
Mr. Larry L. Todd, Director, Security, Safety and Law 
  Enforcement, Bureau of Reclamation, U.S. Department of the 
  Interior
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Randy Walker, Aviation Director, Clark County Department of 
  Aviation
  Oral Statement.................................................    41
  Prepared Statement.............................................    45

 
                ASSESSING THE SECURITY NEEDS OF THE WEST

                              ----------                              


                       THURSDAY, AUGUST 21, 2003

                     U.S. House of Representatives,
         Subcommittee on Intelligence and Counterterrorism,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:40 a.m., 
Clark County Commission Offices, 500 South Grand Central 
Parkway, Las Vegas, Nevada. Hon. James Gibbons [chairman of the 
subcommittee] presiding.
    Present: Representatives Gibbons and Shadegg.
    Also present: Representatives Berkley and Porter.
    Mr. Gibbons. Good morning, everybody. I'm Congressman Jim 
Gibbons, the Second Congressional District of Nevada, the 
chairman of the Subcommittee on Intelligence and 
Counterterrorism for the Committee on Homeland Security.
    To my right is Representative John Shadegg from Arizona. 
We're welcoming him. He's the chairman of the Subcommittee on 
Emergency Preparedness and Response for Homeland Security.
    We'd like to welcome all of you here today. Today is a 
hearing on intelligence and homeland security needs of the 
West. As a result, we directed ourselves to have it in Las 
Vegas as a perfect place to have this hearing.
    Before I begin my opening remarks, I would like to invite 
our two other Congressmen, if they are in the room, to join at 
the dais. And it should be noted that these two Congressmen 
from Nevada, Jon Porter from the Third District and Shelley 
Berkley from the First District here in Las Vegas will be 
invited to join us on the dais, making any opening statements 
they want, and but they will not be able to ask questions 
simply because they're not members of the committee.
    I'd like to ask unanimous consent from the committee for 
that. Without objection, when they arrive, they will be invited 
to sit at the dais.
    Right now I'd like to turn the mike over to my colleague 
from Arizona for any motions that he may have at the beginning.
    Mr. Shadegg. Mr. Chairman, the only request I would make 
would be an unanimous consent request that the statement of Mr. 
Frank Navarrete, the Arizona director of Homeland Security be 
included in the record.
    As you know, Mr. Navarrete was supposed to be here today to 
testify before us. Unfortunately, because of an ongoing 
situation in Arizona with the gasoline shortage, it was 
impacted just yesterday by some developments affecting the gas 
pipeline coming to Arizona from California.
    Mr. Navarrete is not able to be here, so I would request 
that his testimony, his statement, be included in the record.
    Mr. Gibbons. Without objection, so ordered.
    [The statement of Mr. Navarrete follows:]

PREPARED STATEMENT OF MR. FRANK F. NAVARRETE, DIRECTOR, ARIZONA OFFICE 
    OF HOMELAND SECURITY TO THE HOUSE SELECT COMMITTEE ON HOMELAND 
                               SECURITY,

I am Frank Navarrete, Director of Arizona's Office of Homeland Security 
and Director of the Arizona Division of Emergency Management.

I would like to begin by thanking Congressman John Shadegg for the 
invitation to present testimony here today, and to thank Congressman 
Jim Gibbons as well for this opportunity.

Homeland Security is a high priority for the Governor of Arizona, Janet 
Napolitano, and that has naturally benefited homeland security efforts 
in the state. Arizona was one of the first states to develop a homeland 
security strategy. I traveled to Washington, D.C. this spring to 
personally deliver copies of the ``Securing Arizona'' plan to our 
congressional delegation. My office provides montly updates to keep our 
federal delegation appraised of activities and progress in homeland 
security in Arizona.

Governor Napolitano created the Office of Homeland Security to embrace 
homeland security needs and provide direction and control. 
Additionally, she created the Homeland Security Coordinating Council to 
provide broad representation for input in homeland security long-range 
planning. Regionalization and partnerships are recognized as integral 
elements to ensuring protection and safety for citizens in every reach 
of the state. A couple of months ago, we became the first state in the 
nation to put a statewide fire service mutual aid plan in place. In 
short, the importance the Governor places on homeland security provides 
high profile for strategy development and problem-resolution. Due to a 
significant deficit in the state's budget however, funding for homeland 
security is tight.

So we have the will and ability to assess needs and vulnerabilities in 
our state, and are therefore able to develop a strategy. As the federal 
government develops its long-term strategy, Arizona will work to align 
the state strategy to embrace the principals and guidance provided in 
the federal strategy.

Strategic planning, vulnerability and equipment assessments show us 
where our shortfalls are, however we are currently in a position where 
the gap between needs and funding is wide.

Some of our homeland security needs have been satisfied through funding 
streams from federal government agencies including DOJ, ODP, and CDC. 
For that, we would like to express our sincere appreciation.

As you know, updated vulnerability assessments are currently being 
conducted for the ODP's 2004 Homeland Security Grant Program. In 
Arizona, we have utilized a Domestic Preparedness Terrorism Task Force, 
co-chaired by myself, as Director of the Division of Emergency 
Management, and by the Director of the Department of Public Safety. 
Stakeholders such as local government, first responders, tribal 
representatives and private stakeholders, sit on that task force. They 
make recommendations on spending strategy to an Executive Council. The 
Council works with the Office of Homeland Security to determine how the 
grant money will be allocated. The money is allocated to the counties, 
whose local emergency planning committees determine local distribution. 
I would like to note here that, in conducting these assessments we 
recognize and are taking steps to identify various potential threats or 
vulnerabilities that lie across our border in Mexico and include them 
in the assessments.

In Arizona, we face many of the same challenges as other states:
        1  We have vulnerabilities, like areas of higher population
        2  We have a need for additional funding:
                <bullet> Prevention of a terrorism event is the number 
                one homeland security priority of Governor Napolitano 
                and in the ``Securing Arizond' strategyplan
                <bullet> WMD equipment for first responders
                <bullet> The medical community is in need of additional 
                equipment and training to deal with potential 
                bioterrorism threats. Additionally, efforts are 
                underway to develop a tracking and reporting mechanism 
                for disease surveillance
                <bullet> Interoperability problems are widespread and 
                include the additional challenge of a lack of radio 
                coverage in many parts of the state
                <bullet> The Arizona Department of Health Services 
                chairs a bi-national bioterrorism committee which 
                closely dovetails the Arizona Office of Homeland 
                Security
        3  Information-sharing between different levels of government 
        and among different agencies has improved since September 11th, 
        however emergency managers, first responders and state agencies 
        with homeland security-related missions continue to share 
        concerns about the availability of current intelligence 
        information.
                <bullet> We appreciate and utilize information provided 
                by the Department of Homeland Security. We continually 
                combine federal intelligence and threat information 
                with our own state and local input, analyze the 
                information, identify pockets of vulnerability, and set 
                forth prudent awareness and security steps for those 
                threatened areas.
T2We have unique challenges in Arizona as well:
        1  We are a border state. We share 370 miles of border with 
        Mexico. This includes 8 Ports of Entry.
                <bullet> A great deal of the border is located in rural 
                areas and has a high incidence of illegal immigrant 
                traffic.
                        <bullet> Local governments, like counties and 
                        tribal communities expend . time and personnel 
                        resources coping with problems associated with 
                        the illegal immigration traffic, such as 
                        hospitalization and deaths, crime and 
                        additional law enforcement costs, and littering 
                        and property damage.
                Bi-national visit programs--there is a great demand to 
                meet the visitation needs of workers who travel back 
                and forth across the border, tourists, and also provide 
                a timely flow of commercial traffic, especially during 
                harvest season, when produce must be transported 
                quickly from one place to another. This is a federal 
                policy issue with significant local impact. I 
                appreciate the concept of improved security and in 
                improved visit programs.
                <bullet> Interoperability and communication problems 
                are vitally in need of equipment so that we are able to 
                communicate with our federal partners and Mexican 
                colleagues across the border in Mexico. In November, 
                the Arizona Division of Emergency Management will 
                conduct a bi-national WMD exercise in Nogales, which 
                will employ the critical response elements of planning, 
                response, interoperability, and radio communications.
        4  Tourism brings 29.5 million people to the state each year 
        (Arizona's population from 2000 census is 5.2 million). Arizona 
        ranks 18 among the 50 states for domestic tourism:
                        <bullet> The Grand Canyon, with over 5 million 
                        visitors annually
                        <bullet> Glen Canyon Daml/Lake Powell
                        <bullet> Conferences and conventions that place 
                        large numbers of people
                generally into the downtown area of Phoenix
                        <bullet> High profile events:
                                <bullet> Phoenix is one of a handful of 
                                cities nationwide that entertains the 
                                ``Big Four'' in the world of sports--
                                football, baseball, basketball and 
                                hockey
                                <bullet> Other premier sporting events, 
                                including the NASCAR and Indy Car 
                                racing circuits and the World Series
        5  Agriculture in the state, and agricultural products that 
        flow through Arizona from other states and from Mexico. Of 
        concern is the spread of disease or bioterrorism attack.
        6  Areas of low population with vulnerable infrastructure like 
        the Mexican border, dams, utilities, bridges and underground 
        power, telephone and fuel lines that are located in rural 
        desert or mountainous terrain.
                <bullet>  Clearly, our current experience with the 
                rupture of a major gasoline line in the Tucson area 
                illustrates the disruptions that can result from a 
                terrorist attack on such an easily accessible target. 
                The current event is in its third week, and has 
                resulted in gasoline shortages in Maricopa County and 
                gasoline price increases that have spread across our 
                borders into other states.
                <bullet>  We note with interest and concern the 
                electrical grid events that resulted in massive 
                blackouts on the East Coast. Having dealt with a 
                similar problem with our Western United States 
                electrical grid in the late 90's, we appreciate the 
                importance of the hardening of critical infrastructure.
        7  Hoover Dam and more dams downstream
        8  Palo Verde Nuclear Power Plant, the largest in the country 
        and second largest in the world, and located 50 miles from 
        downtown Phoenix
To meet some of the challenges we face, we have identified ``model'' 
programs. As an example, we are working with our partners in the 4 
corners area--New Mexico, Utah and Colorado, to resolve radio 
interoperability problems. We are working on technical solutions along 
the border to aid in the slowing of the illegal immigration flow and 
overall security improvements. And we have entered in to discussions 
with other border states, including Texas, New Mexico, and California 
for inter-state interoperability solutions.
In summary, we are actively pursuing enhancements to our homeland 
security program in Arizona. We developed a statewide strategy plan to 
provide guidance and intend to build on the process by developing a 
multi-year homeland security plan; the Governor created the Office of 
Homeland Security to lead homeland security efforts and seated a 
coordinating council; and state, local, federal and tribal partners and 
members of private industry are working closely together. I share 
Governor Napolitano's philosophy that our objective is to create an 
environment where homeland security is imbedded into our day-to-day 
business of governance.
We are working hard to do our part, appreciate your federal support, 
and hope that, together, we will make our homeland more secure and 
provide for the heath and safety of the citizens of Arizona.
I thank you for allowing me to participate in this hearing.

    Mr. Gibbons. As we might advise the people in the audience 
here today, this is a committee hearing. It is being recorded, 
and it is not what you might otherwise be familiar with as a 
townhall meeting. This is a committee hearing that is part of 
the congressional process. We take recorded testimony. And as a 
result, it is included in the congressional record.
    At this point in time, I'll begin with our opening remarks. 
And I would begin by saying that homeland security issues still 
remain a top priority and a major focus for America today.
    The events of September 11th, of course, raise new public 
policy issues affecting every level of government service and 
private business.
    The United States depends on citizens to be vigilant. It 
depends on State and local government and private businesses to 
assess critical infrastructure vulnerabilities and work with 
Federal organizations in support of national and collaborative 
partnerships.
    It depends on businesses to take the necessary steps to 
protect their facilities and their patrons, and it depends on 
thousands of trained personnel to work with communities across 
the country to security our water and power supplies and their 
distributions systems to secure our transportation systems and 
to ensure preparedness of expert medical care when needed.
    Facing this first real crisis, it's first real crisis, 
since it began operations earlier this year, and the Department 
of Homeland Security viewed the massive power outage in the 
northeast United States this past week as a test of their 
ability to respond to a crisis.
    While there were no casualties, no terrorists, and we are 
thankful for that, and no chemical or biological weapons, the 
Department of Homeland Security was able to assist in the 
response.
    After receiving word of the outage last Thursday, within 
hours, the Department assembled crisis action teams in 
preparation to coordinate the Federal response and the 
Department's communication network and was assessing its 
ability to serve as an information clearinghouse, tracking the 
blackouts impact for local authorities.
    The State and local authorities shouldered most of the load 
in responding to the outage, but the Department of Homeland 
Security emergency response teams stood ready to deploy.
    Again last week, the contingent of Southern Nevadans 
attended a Federal Emergency Management Agency exercise in 
Maryland to test Las Vegas' long-term hazardous emergency 
operations plan. The City of Las Vegas received praise for its 
response during the mock disaster and passed the course at the 
Emergency Management Institute.
    Multi-levels exercises such as this are key to discovering 
an emergency response plan's shortcomings and ingrain the 
importance of mutual support.
    This week Nevada is currently taking part in a Department 
of Homeland Security and Department of Defense co-sponsored 
bio-terrorism exercise. This joint Federal, State, and local 
exercise determined promise is testing our readiness and our 
ability to respond to a local terrorist attack.
    The exercise is being conducted by the newly created U.S. 
Northern Command in conjunction with the State of Nevada's 
Governor's Office and the Federal Emergency Management Agency, 
the Nevada National Guard, and a number of local first 
responder organizations.
    The exercise is taking place at Logandale, Nevada, and 
involves upwards of 5,000 local, State, and Federal 
participants and exemplifies the cooperative nature of 
operations in protecting our homeland.
    The primary purpose of this hearing today, entitled 
``Addressing the Security Needs of the West,'' is to focus on 
the issues that cut across government and industry sectors and 
ensure a cohesive approach to achieving continuity in 
delivering critical infrastructure and information sharing 
services in the Western United States and then in making sure 
that is in place and effective.
    It is my pleasure to introduce two members of the 
distinguished panel, when we get to those, the first panel, 
which will be Colonel, retired, with the United States Marine 
Corps, William Parrish, Assistant Secretary for information 
analysis for Department of Homeland Security; Mr. Larry Todd, 
Director of Security, Safety, Law Enforcement, Bureau of 
Reclamation; and Colonel, retired from the Nevada Army National 
Guard, Jerry Bussell, who is the special advisor to the 
Governor of the State of Nevada for homeland security.
    The second panel we will have today is Mr. David Shepherd, 
head of security for the Venetian Resort; Mr. Randy Walker, 
Aviation Director for Clark County Department of Aviation; Dr. 
Dale Carrison, Emergency Department Director, University of 
Nevada Las Vegas Medical Center; and Deputy Chief Bill Conger, 
Las Vegas Metropolitan Police Department.
    I want to thank all of you for coming, and I will turn the 
mike over now to my colleague from Arizona, the chairman, as I 
said, of the Emergency Preparedness and Response Subcommittee, 
Mr. John Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    And it is a privilege for me to be here. I want to express 
my appreciation for your holding this important hearing. It is, 
of course, as a congressman from Arizona, important to me that 
we, in fact, assess the security needs of the West. And I think 
this hearing will produce some important information on that 
topic.
    As I already mentioned, Frank Navarrete, the State of 
Arizona, Director of Homeland Security, unfortunately, had to 
cancel his appearance today, but his statement is in the 
record. I wish he could be here; however, there are issues that 
require his attention immediately in Arizona.
    These issues, I think, are very, very important to all of 
us in the West. Oftentimes when we see these crises, and when I 
interact with my colleagues in the U.S. Congress, they think of 
the homeland security threat as being something unique to the 
East Coast or perhaps to the East and West Coasts, and they 
forget the intermountain west. And so I'm very appreciative of 
your holding the hearing today.
    Col. Parrish, I want to thank you for coming to the West 
and getting a chance to view our unique security issues and 
give us your testimony and perhaps firsthand some of the 
challenges we face.
    I appreciate all the witness that are here today, 
particularly the Bureau of Reclamation. I will tell you that in 
extensive conversations with Chairman Chris Cox of the Homeland 
Security Committee, Select Homeland Security Committee in the 
House, we have looked at the issue of whether or not homeland 
security funds are being properly allocated under the current 
formula.
    And sometimes you hear colleagues say, ``Well, it shouldn't 
be done on a population basis. It shouldn't be on done on the 
current formula basis. It ought to be done on a different 
formula.''
    I'd like to chime into those discussions and point out that 
while perhaps the greatest need for the resources may be in our 
huge population centers like New York or Los Angeles or other 
major cities, I have some deep concerns about the Bureau of 
Reclamation facilities and the fact that they are indeed, I 
think, fairly vulnerable and were they to become the targets of 
a terrorist attack, the devastation could be vast and far more 
than I think the country appreciates. So I'm looking forward to 
your testimony.
    Clearly, Mr. Chairman, the success of our anti-terrorist 
efforts depend a lot on intelligence and your efforts in the 
intelligence arena.
    They also depend upon open lines of communication. One of 
the most common complaints I get when I am out here in the West 
talking with local law enforcement officials or other first 
responders is the issue of information flow.
    And it is critically important that information flow from 
the Department of Homeland Security, the FBI, the CIA, TTEC, 
all the Federal offices involved to the State and local 
personnel so that they have an operational knowledge of what is 
going on, and that the information flow in the opposite 
direction. And I know since that this is kind of the first time 
in our Nation's history when we are confronting the sharing of 
highly classified national security information with State and 
local first responders, we're struggling through that process. 
But I want to stress how important it is.
    And so I hope that at least the one thing that comes out of 
this hearing is improving the lines of communication and a 
development of relationships.
    The Chairman has already mentioned that I chair the 
Subcommittee on Emergency Preparedness and Response for the 
Homeland Security Select Committee in the House. I want to make 
it clear that my focus, while making sure that we have the 
resources to engage in response once an attack occurs, my 
primary focus on that subject is on preparedness.
    I believe the American people expect us to be forward 
looking, to look out into the world to see where the attack is 
coming from and stop it before it occurs.
    It is all well and good that we be in good position to take 
care of the attack once it has occurred, but I want to point 
out that at least from my perspective, terrorist attacks are 
different than hurricanes, perhaps different than floods and 
other types of emergencies that our Nation can face.
    I know of nothing we can do to stop a hurricane. I know of 
nothing we can do to stop a flood. And, yet, I know of things 
we can do to stop terrorist attacks, and I think the American 
people expect that out of us, and I know that Chairman Cox 
feels that way as well.
    One point I want to make. I have been involved throughout 
my congressional career in focusing on the Colorado River, the 
dams on the Colorado River, and my interest in preserving them. 
There are those who would like to take down for, example, Glen 
Canyon Dam. I spent some time opposing those efforts.
    But I would point out we have just had this energy crisis 
on the East Coast, which has cost us electricity. I have just 
returned from Iraq where the absence of reliable electricity is 
disrupting that society rather severely.
    Glen Canyon Dam has a capacity of 1.2, 1.3 kilowatts; 
Hoover Dam right here just miles from us a little over one 
million kilowatts. Those are the second and third largest dams 
that the Bureau of Reclamation has a responsibility for. Davis 
Dam and Parker Dam have 251,00 kilowatts and 120,000 kilowatts 
each. Those are critical work resources to this Nation. Indeed, 
during the California energy crisis of 2001, it was power from 
those dams that enabled us not to have any more severe 
consequences than we did.
    The last issue I just want to mention in my opening 
statement is a perennial issue for those of us in the 
Southwest, and that is the porous nature of our Arizona-Mexico 
border.
    And I hope, Mr. Parrish, at some point you'll get down 
there and be able to see it. It is wide open. You can fly over 
it. There are vast stretches where there is not even three-
strand barbed wire fence. I think that is a clear security 
issue for this Nation.
    So I look forward, Mr. Chairman, to the testimony and again 
thank you for holding this important hearing.
    Mr. Gibbons. Thank you very much, Mr. Shadegg.
    Mr. Gibbons. We'll turn now to our two colleagues who are 
guests on this committee for any remarks that they may have.
    I'll turn to my left to Ms. Berkley from the First District 
for her remarks.
    Ms. Berkley. Thank you very much, Mr. Chairman.
    I'd like to thank Ranking Members Jim Turner and Ms. 
McCarthy for inviting me to this hearing on assessing the 
security needs of the West. The security needs of our Nation 
must be addressed in a bipartisan basis, and that's why I am 
particularly delighted that Congressman Gibbons has invited me 
to speak with you today.
    I believe this is an important and timely hearing, and I 
welcome my colleagues on the committee to my home town and my 
congressional district to discuss vital concerns about 
protecting western communities such as Las Vegas from the 
continuing threat of terrorism.
    Additionally, I would like to recognize my fellow panel 
members. I have had the distinct pleasure of knowing them and 
working with them for quite a while on this and other issues. 
And I know that their leadership IS needed to manage and ensure 
the protection of Southern Nevada.
    September 11th woke our Nation to the fact that we have 
enemies ready and willing to take dramatic and unconventional 
action against the United States. As we meet here today, it is 
very likely that terrorists are meeting somewhere in the world 
planning another attack on our Nation.
    In the fall of 2001, that attack was against New York City 
and Washington, D.C. The next attack could very well be against 
a community in the West.
    Federal, State, and local emergency officials across the 
West recognize this and are working to prevent and prepare for 
such an occurrence.
    Our Nation's first responders are on the front line of 
homeland security. Local preparedness must be a top priority. 
Our first responders must be involved in every step of the 
process and be afforded the flexibility to meet community-
specific needs.
    A major concern in Southern Nevada is the availability and 
distribution of funding resources for homeland security. Local 
officials and first responders know best what their community 
needs are.
    States and localities should not find themselves in the 
position of having to implement numerous Federal mandates 
without the funding resources needed to support these mandates.
    However, Congress and the Executive Branch continue to 
place expensive requirements on State and local agencies to 
meet Federal homeland security goals without providing the 
necessary funding. Among these burdens are: Transit security 
measures, border protection, safeguarding air cargo, port 
security, the protection of chemical facilities, and perhaps 
most importantly, funding of our first responders.
    This is of particular concern at a time when the states are 
facing their greatest financial crisis since World War II. It 
will continue to be my priority in Congress to ensure that 
states and local communities are provided greater resources to 
address their security needs. Homeland security must be given 
more than lip service in Washington, D.C. It must be a fully 
funded national priority.
    An issue specific to Las Vegas and other tourism-based 
areas is how tourists and visitors will be accounted for in the 
homeland security funding formulas. Local officials and 
emergency response personnel must devise security plans to 
protect not only the 1.5 million residents, but also 36 million 
visitors who travel to Southern Nevada annually.
    After September 11th, I held a roundtable discussion with 
Southern Nevada's first responders to assess their needs. After 
this meeting, I sent a letter to the President and to Secretary 
Ridge urging them to devise a funding formula that would 
address the needs of tourist communities.
    I was very pleased that on July 30th of this year, a 
provision proposed by Senator Reid and Senator Ensign was 
approved by the Senate Appropriations Committee with 
jurisdiction over homeland security funding. This important 
resolution changes the homeland security funding formula to 
take tourism into account. I was pleased that the Senate 
recognized the impact tourism has on the ability of many 
communities to adequately prepare for and prevent terrorism.
    As this important provision moves to conference, I hope 
that the two bodies can agree that the impact tourism has on 
many communities greatly affects their ability to prepare for 
and respond to threats.
    However, we need to do more to help these communities. 
Factoring tourism into the funding formulas is important, but 
we must ensure that actual funds get to the responders 
protecting these communities.
    On a busy weekend there may be upwards of an additional 
300,000 people in Las Vegas. The population of the community 
increases substantially and the responsibility of local 
emergency responders increases along with it. Las Vegas 
officials must be able to address the security needs of their 
residents as well as the added burden of thousands of visitors. 
Therefore, the resources available to these emergency 
responders must take into account these added responsibilities.
    Another homeland security issue that affects Nevada and the 
West is protection of Hoover Dam. Hoover Dam provides water to 
Arizona, California, and Nevada and supplies power to the 
Western states.
    A breach at the Dam would be a catastrophic event that 
would affect millions of Americans. As the Federal Government 
assesses the needs of the West, officials must evaluate the 
possible risks related to the Dam and ensure that resources and 
information are available should there be such an occurrence.
    Yucca Mountain and the proposed shipment and storage of 
nuclear waste to our State Poses one of the West's most serious 
security threats. I have introduced legislation requiring a 
comprehensive analysis of the Yucca project's safety and 
vulnerability to terrorist attacks and the development of a 
Federal emergency plan, including one specifically for airborne 
attacks, to defend the site.
    Under my legislation, the analysis and defense plan would 
cover the site, transportation routes and shipping casks, waste 
storage containers, and personnel working for the project, 
among other items.
    Instead of making the United States safer, the proposed 
Yucca Mountain project and the shipment of 77,000 tons of 
nuclear waste across our roads and railways provides terrorists 
a target that could cause massive economic and civilian 
casualties.
    Before we start transporting nuclear waste across the 
country and before we spend another dime on this project, we 
better know what we're going on to address the possibility of 
terrorism and how we're going to do it.
    Since September 11th, we have continued to hear and read of 
the efforts of al-Qaeda and Osama bin Laden to develop a 
radioactive ``dirty bomb'' or other means of nuclear attack on 
the United States.
    It is naive to believe that thousands of shipments of 
nuclear waste and the storage of spent fuel in a single, 
massive facility without adequate safeguards would not be a 
target of opportunity to these mass murderers.
    I am concerned about the waste at every stage of its 
transfer. Waste would be vulnerable to attack during packaging, 
shipment, temporary storage, repackaging, and finally in a 
single national repository. It must be realized that the 
nuclear waste will be stored above-ground for a significant 
period of time before it is actually placed in the repository.
    There will be hundreds of shipments of waste across our 
country each year. A single truck bomb, or private plane used 
as a weapon, could release radioactive waste that could 
endanger lives, pollute the environment, and cost millions in 
economic damages.
    Just last week it was revealed that the Department of 
Energy secretly shipped nuclear waste from New York to Idaho 
without informing officials and first responders in the 
communities along the route. The Yucca Mountain project poses 
far too great a risk to accept blind assurances from the 
Department of Energy and the nuclear industry that every 
precaution is being taken to prevent a terrorist attack and to 
prepare communities that would be affected.
    The Federal Government has a duty to assess the risk of 
this misguided plan, not just to protect Nevada and our 
neighbors in the West, but for the well-being of our Nation.
    Again, I want to thank you, Mr. Chairman, for holding this 
important hearing. I am looking forward to the testimonies of 
my fellow panel members and further discussion on homeland 
security needs of the West.
    [The information follows:]

 PREPARED STATEMENT OF MR. WILLIAM H. PARRISH, ASSISTANT SECRETARY FOR 
     INFORMATION ANALYSIS, INFORMATION ANALYSIS AND INFRASTRUCTURE 
                         PROTECTION DIRECTORATE

Good morning Mr. Chairman and distinguished members. I am delighted to 
appear before you today here in Las Vegas, Nevada to discuss The 
Department of Homeland Security's role in securing the West.

I am currently the Acting Assistant Secretary for Information Analysis 
in the Information Analysis and Infrastructure Protection Directorate 
(IAIP). Prior to assuming this position on July 3rd of this year, I was 
the Senior DHS representative to the Terrorist Threat Integration 
Center (TTIC). In this capacity I served in a senior leadership 
position as the Associate Director for Homeland Security. My tenure in 
US Customs as the Executive Director of Anti-terrorism provided the 
opportunity to gain an appreciation for the criticality of information 
sharing and the necessity for recognition and understanding of 
individual agencies' capabilities in the fight against terrorism.

The Department of Homeland security is focused on a clear mission: to 
prevent terrorist attacks, reduce our vulnerability to an attack, and 
minimize loss of life and speed recovery should one occur. Further, the 
Department's mission includes reducing the opportunity for terrorists 
to exploit failures of critical infrastructure caused by natural 
disasters or other unplanned emergency circumstances (e.g., 
vulnerabilities arising from failures in water supply, dams, bridges, 
or power grids).

In this mission, the Department of Homeland Security is not alone. We 
are actively working with our Federal partners, State and Local 
governments and the private sector. Our strategy for protecting the 
country is a national strategy for a reason, as Secretary Ridge has 
stated on numerous occasions, ``When our hometowns are secure, our 
homeland will be secure.'' That is not merely rhetoric, but a 
fundamental principle of the nation's hOl1)e.1and security effort. 
Everyone is a partner in the effort. As you all know, 85 percent of our 
nation's critical infrastructure is owned or operated by private 
enterprise. This includes systems such as telecommunications, banking 
and finance, energy and transportation. The private sector also is a 
key source of new ideas and innovative technologies that will provide 
tools in the fight against terrorism.

We must be aggressive in connecting and staying connected with our 
partners to provide an extraordinary and unprecedented exchange of 
information. This information must be actionable by local law 
enforcement and first responders, but must also empower the average 
citizen to do his part in assisting with securing our homeland.

We can never guarantee that we are free from the possibility of 
terrorist attacks, but we can say this: Today, the American people are 
more secure and better prepared than ever before.

I say that because we are more aware of the threat of terrorism, and 
more vigilant about confronting it. We share more information with the 
people who need it, including our state and local partners and the 
private sector. And they share with us. Ensuring homeland security 
requires a nation-wide cooperative effort.

We've moved rapidly to map and protect our critical infrastructure, 
such as power plants and financial systems; seal our borders from 
terrorists and suspicious cargo; and prevent and prepare for attacks 
involving weapons of mass destruction.

The terrorist networks we seek to eliminate, in large measure, plot and 
train overseas. They recruit new members in democratic countries. They 
launder their money through international banks. They communicate 
through the same networks used for global commerce, and travel the same 
busy ports. That's why we're providing added layers of security that 
push our borders outward, making our seaports, airports and borders the 
last line of defense, not the first. Taken together, these measures 
help us achieve the mission of homeland security.

The Department of Homeland Security's Information Analysis and 
Infrastructure Protection directorate plays an important part in the 
mission of homeland security by: (1) providing the full range of 
intelligence support to senior DHS leadership; (2) Mapping, with 
Infrastructure Protection (IP), terrorist threats to the homeland 
against our assessed vulnerabilities in order to drive our efforts to 
protect against terrorist attacks; (3) conducting independent analyses 
and assessments of terrorist threats, including competitive analysis, 
tailored analysis, and ``red teaming''; (4) integrating the work of all 
DHS components as well as managing the collection and processing of 
information into usable and actionable information from DHS' 
intelligence components; and disseminating time sensitive alerts and 
advisories to federal, state, local governments and private sector 
infrastructure owners and operators.

IAIP has robust, comprehensive, and independent access to information 
relevant to homeland security--raw and processed--collected 
domestically and abroad. Accessing the information and intelligence 
from this mosaic of programs and systems of federal, state and local 
agencies supports our mission to analyze data and take action to 
protect against terrorist attacks directed at the U.S. homeland. Our 
Information Analysis (IA) office has the ability to conduct its own 
analysis and to leverage the information of the FBI, the CIA, TTIC and 
the remainder of the Intelligence Community and federal government, 
plus state and local law enforcement and private sector entities, to 
protect the homeland.

Central to the success of the DHS mission is the close working 
relationship between ``IA'' and ``IP'' to ensure that threat 
information is correlated with critical infrastructure vulnerabilities 
and protective programs. This threat and vulnerability information can 
then be used to recommend preventive and protective measures.

In addition to the unique IA-IP partnership; the Homeland Security 
Operations Center (HSOC) serves as a focal point for the Nation's 
efforts to protect our homeland. The HSOC is a 24 x 7 x 365 days a year 
center comprising members from more than 13 federal agencies from the 
Intelligence Community, Law Enforcement Agencies, emergency 
preparedness organizations and other entities focused on infrastructure 
protection. Given the information provided from the parent 
organizations of these entities, and the all-source data provided by 
other DHS partners, information and intelligence relating to threats to 
the homeland are analyzed from multiple arenas. This all-source data-
fusion performed at IAIP allows products to be tailored to address a 
specific threat that assist DHS constituents in prioritizing resource 
allocations in the enhancement of their security posture that supports 
their efforts in countering potential terrorist acts.

IAIP is the central information center ofDHS' efforts to coordinate the 
protection of U.S. homeland security. As such, IA supports DHS' law 
enforcement components through timely and integrated analytical 
support. For example:
                <bullet> In coordinating with Customs and Border 
                Protection, which process more than 1.1 million 
                passengers arriving daily at our Nation's airports and 
                seaports, and inspects more than 57,006 trucks and 
                containers, 580 vessels, 2,459 aircraft, 323,622 
                vehicles, and arrest over 2,500 illegal alien border 
                crossers and smugglers daily. IA has immediate access 
                to valuable information regarding potential terrorist 
                activities that further enhances our ability to develop 
                threat plot lines - connecting the dots.
                <bullet> In coordinating with immigration and Custom 
                Enforcement, which investigates cases involving alien 
                smuggling, terrorist financial dealings and other 
                crimes associated with terrorist operations, IA 
                analyses and assessments ensure the ability to identify 
                potential trends of terrorist related activity.
                <bullet> In coordinating with the Transportation 
                Security Administration, which screens approximately 1. 
                5 million passengers every day before they board 
                commercial aircraft, IA assists in determining 
                individuals to be entered on Watch lists.

IA ensures that homeland security products derived from the fusing of 
disparate types of information are shared with Federal, State, and 
Local governments, as well as the private sector. Additionally, IA 
coordinates with the Federal Bureau of Investigation in publishing 
combined DHS-FBI Intelligence Bulletins.

IAIP is building a strong team of professionals and assigning dedicated 
and knowledgeable individuals in key liaison positions within our 
partnering agencies. This will further enhance the timely access to 
critical information that when placed in the hands of the dedicated and 
competent members of DHS serving at our borders, airports, seaports 
across America, will increase our ability to detect, prevent and deny 
terrorists the opportunity to plot a strike against our Homeland. With 
the continued support of Congress, I am confident that IAIP and our 
partners in the war against terrorism can succeed in meeting the 
challenges presented before us.

The Department of Homeland Security is the second largest department in 
our Government. In our first six months we have made progress in 
numerous areas, but we are just at the beginning of this comprehensive 
effort to protect our Nation from terrorism. While much has been 
accomplished, there is much more work to be done. We must stay focused 
and engaged in this effort so that we can meet the challenges of this 
critical time in our Nation's history.

Mr. Chairman, this concludes my prepared statement. I would be happy to 
answer any questions you may have at this time.

    Mr. Gibbons. Thank you very much. We'll turn now to the 
newest member of the Nevada delegation, who we are all pleased 
and proud to work with, Mr. Jon Porter from the Third 
Congressional District.
    Mr. Porter, welcome to the committee. You have five minutes 
to make your opening statement.
    Mr. Porter. Thank you very much, Congressman Gibbons, for 
your leadership and to my colleague from Arizona, Mr. Shadegg. 
We appreciate your help and assistance. And of course to the 
panel and all those first responders in the audience today--
fire, police, highway patrol, Federal agencies, we appreciate 
your input. And trust me, we want to hear what you have to say.
    The events of September 11th, of course, changed forever 
the way that this country considers its safety. Threats we did 
not think were serious or that we failed to recognize have 
become far too real to ignore any longer.
    Thanks to the leadership of the President and farsighted 
members, such as the panel here today, we now have a Homeland 
Security Department to coordinate responses to the immense 
challenges of guarding against terrorist attacks and this 
committee to oversee that department and point out where more 
effort is needed.
    Las Vegas and all the other communities here, including the 
County of Clark, have a special challenge since that day of 
September 11th. We depend upon the free flow of tourists into 
our community, yet we cannot afford any threats to our air 
transport system. We depend on critical infrastructure for our 
very existence, but cannot afford to be over dependent on any 
single response plan or resource for meeting threats to that 
infrastructure.
    Southern Nevada turns a friendly smile to the world, but 
cannot forget that there are men and women who would take 
advantage of us and threaten our community and our families.
    Since my election to Congress, I have worked with Mr. 
Gibbons and, of course, my colleagues here on the panel, 
Director Randy Walker, who is here today, Rosemary, and to many 
others, Jerry Bussell, friend for years, to help improve our 
ability to protect ourselves and to prepare Nevada in case of a 
disaster.
    The Nevada delegation is working to ensure that our massive 
population is taken into account when funds are distributed to 
cities by population.
    Having chatted with Metro, and I think Stan Olsen is here 
today, Stan, we're hearing your words. Where at one time we can 
have a population of 250,000 to 300,000 or more at a given 
time, in reality, this is an emergency that can impact millions 
of people.
    We must have adequate funding to ensure that our first 
responders continue to be able to ensure the safety of all 
residents and the visitors of our county, aid to communities 
must be proportional to the population and the threat.
    We must also work towards ensuring the safety of our power 
grid and energy generators. The recent blackouts in the 
Northeast show, once again, how important the Hoover Dam and 
the transmission lines are to Southern Nevada and to the whole 
West Coast, from agriculture, irrigation, to power. We have to 
ensure that Hoover Dam and other critical infrastructures are 
physically safe and also that our infrastructure is safe from 
the electronic attack that could take place or interfere with 
water, power throughout the community.
    Having met with many local government leaders, city 
managers, a grave concern for our communities is the 
technology. Imagine for a moment an individual sitting in a 
hotel room or in a tent or in a home somewhere around the world 
with a laptop computer that could break into our technology and 
literally bring our communities to a halt.
    Working with Mrs. Berkley, we were able to make sure that 
McCarran Airport is reimbursed for funds it's put up for 
security improvement. And we want to do more. We were able to 
convince Transportation Security Administration to revoke some 
of the draconian cuts that is proposed for McCarran. Randy and 
Rosemary, we appreciate everything you're doing.
    As I mentioned, we are working with Metropolitan Police 
Department. Another major concern for Nevada and the rest of 
county is uniform communication system. I can remember being at 
ground zero in 1988 shortly after the explosion in Henderson, 
the PepCon line, communication was a challenge. Of course, our 
heros in the fire and rescue and police did a yeoman's job. But 
I remember that day in 1988, we were talking about having a 
uniform communication system so our different levels of 
emergency personnel could respond accordingly. We have yet to 
meet that challenge.
    In the coming months, we'll be working together to make 
sure that more resources are available for our communities and 
to ensure that Southern Nevada is prepared for the challenges 
our Nation may face.
    I want to thank, of course, all the witnesses and 
appreciate everyone for being here today, and I'm looking 
forward to working together as we accomplish this main goal.
    Thank you all very much.
    Mr. Gibbons. Thank you very much, Mr. Porter.
    Mr. Gibbons. Before we begin with our first panel, there's 
a few housekeeping items that need to take place.
    First, I need to advise the panelists here that we try to 
restrict our opening remarks to five minutes or thereabout. No 
one is going to stop you if you go over, but we would like to 
proceed timely so that both panels will have an opportunity to 
be heard and for the panel here to ask question of each of the 
members there.
    So with that stated, let me say that each of your written 
statements in full will be submitted in its entirety for the 
records. So if you want to summarize your remarks, that is fine 
as well.
    Also, to the audience, for those people here, the record is 
going to remain open for a period of 14 days so that any 
comment or comments that you want to submit for the record will 
be allowed. You can send those to us at the committee in 
Washington, D.C. They will be entered into the record.
    That being said, let me also now turn to our first panel. 
Welcome each of you. This is a very distinguished moment for 
all of us here, and I am sure that it is for you, to appear 
before a United States Congress committee and have an 
opportunity to have your voices heard.
    Mr. Gibbons. I will begin with Mr.--Colonel Parrish and his 
remarks.
    Mr. Parrish, welcome. We're happy to have you, and the 
floor is yours.

              STATEMENT OF MR. WILLIAM H. PARRISH

    Mr. Parrish. Thank you very much, sir. And good morning, 
Chairman, and Congressman Shadegg and Congresswoman Berkley, 
and Congressman Porter. I am delighted to be here and honored 
before you this morning.
    Before I begin, I would like to express on behalf of the 
Department, sir, we appreciate, Congressman Gibbons, your 
tireless and dedicated efforts in this fight against terrorism, 
your recognition of how important the efforts of the Department 
is in securing a safe nature. We appreciate that.
    This hearing is also very important to the Department of 
Homeland Security because it affords me the opportunity to get 
out of Washington and get out in America, and, unfortunately, I 
just don't have enough time to spend in this great city for a 
few more days, or I think literally I could walk the streets 
and the lobbies of the hotels and probably talk to at least one 
person in every section of this great country and hear 
firsthand about their views on how the scorecard is for the 
Department of Homeland Security.
    But I think it's safe to say that the people I have talked 
to, I think, without question, that the leadership of Congress 
and the Administration, our President, in developing without 
and creating the Department of Homeland Security was certainly 
the right step to take for this Nation.
    I am the acting assistant secretary for Information 
Analysis of the Information Analysis Infrastructure Protection 
Directorate. I assumed that position on the 3rd of July.
    Prior to that, I was assigned as the Senior Department of 
Homeland Security representative to the newly created Terrorist 
Threat Integration Center, where I served in a key leadership 
position known as the Associate Director for Homeland Security.
    Prior to that, I stood up for the Office of Anti-terrorism 
with the U.S. Customs Service right after 9-11. During my 
tenure at Customs is really when I became aware of the fact of 
that the importance and the critical pieces in this war against 
terrorism had to be information sharing amongst agencies.
    And I will submit that I like to see that the glass is half 
full. And I'm not sure if it was cultural issues or a lack of 
willingness to share information as much as a full 
understanding and appreciation for what another agency could do 
with that information if they had it.
    I continue to strive for that same type of approach now 
that I am at the inner-agency level, if you will, and not 
operating just within the confines of a single organization. 
And I'll refer to that a little bit later on.
    Within the Department of Homeland Security, we have the 
operational organization, as I've mentioned, such as Customs, 
and now the integration with Customs and Border Protection. We 
have agencies that have access to a wealth of information that 
assist in connecting the dots, if you will, of terrorist 
activities or potential terrorist activities in this country.
    When you look at the borders, and as Congressman Shadegg 
indicated, the southwest border there and the vastness of it, 
certainly, I know it is a priority within the Custom-Border 
Protection with the Secretary of how we address that situation.
    But when on a daily basis, we have over 1 million 
passengers coming across our borders, either through the air or 
across the land, or by sea entering our country--over 57,000 
trucks coming across our borders and containers, with 580 
vessels arriving at our seaports on a daily basis, 2,500 
aircraft coming into the United States and over 323,000 
vehicles entering our country, stop and think for a moment, 
though. The Customs inspectors and the border patrol agents 
have the ability as they access potential information because 
of their unlimited search authorities at those borders, the 
ability to acquire information that could be a key piece, a 
missing dot, if you will, in a major FBI case trying to 
formulate and see if we have a potential terrorist plot.
    We have the same with our Immigration and Customs 
Enforcement Bureau, again, where they're working and 
investigating cases on alien smuggling operations, financial 
operations, and other crimes that may be associated with 
terrorist operations.
    The Transportation Security Administration postured at the 
airports processing 1.5 million passengers daily, again, 
another set of eyes and ears, if you will, out there looking at 
what's moving through our country.
    But to further enhance this process of correlating the 
information from other agencies, we have within the information 
analysis and the infrastructure protection directive, the 
homeland security operations center, which we man 24 hours per 
day, seven days a week, 365 days a year. And in reference, 
Chairman Gibbons, to last week's blackout was a major active 
player in the immediate processing of information to be able to 
advise key leadership of the country what was happening with 
the northeast corridor during that blackout period.
    Additionally, within that center, we have approximately 15 
different Federal agencies represented. In my experience, any 
time you bring different agencies sitting down in a room 
together next to each, a tremendous amount is learned about the 
capabilities and what each agency brings to the fight.
    I'm proud to say each morning between 9:00 and 9:30, the 
director of the operations center huddles all those agencies, 
and each one reports on the major activities of their agencies 
what they're getting from the operations center, another step 
in the information sharing process, which is so critical.
    As these reports are received into the operations center, 
they may be coming, again, from our supportive agencies. They 
may be coming from State and local authorities, and even the 
private sector, suspicious activity reports.
    These reports are then processed with the information 
analysis director, the people under my staff. We analyze this 
information. We coordinate it with other agencies in order to 
identify if there is any possible correlation with terrorists' 
nexus to these reports that are coming in.
    For example, a report of suspicious person videotaping the 
entrance to a nuclear power facility at one location and 
perhaps two days later at another site in another State, a 
similar vehicle is also observed.
    How is this correlated to see if, in fact, we have now a 
presurveillance operation in place?
    This is the type of information that we look to bring into 
the operations center at our department so we can conduct this 
in-depth assessment, independent assessment and an analysis of 
what we're dealing with.
    I'm confident that the process and procedures that we are 
continuing to build upon, though, that I have described here, 
are in full compliance with the legislature that had been 
passed by you, by the Congress, in the Homeland Security Act of 
2002.
    Specifically, though, regarding, on the success, the most 
recent successes of the FBI and CIA, who should very well be 
commended on those great Americans, what they are doing, we 
have succeeded in arresting some very key members of al-Qaeda 
over the past 12 months. I think you have been hearing about 
some of the reporting and the information that we are learning.
    What we are seeing is that the organization al-Qaeda 
singles out targets whose destruction may have symbolic 
resonance, strike a blow to U.S. power and prestigious impacts, 
causing mass casualties and generate economic shockwaves 
throughout the country, and, of course, us being the center of 
the world, if you will, a global economic impact.
    Further, the concept of multiple and simultaneous attacks 
are part of this modus operanti, as we observed here in the 
U.S. on September 11th and other attacks overseas. And although 
we have learned of their focus on these type of targets, 
specific intelligence is not always present. It's a very 
daunting and very challenging process of trying to acquire that 
type of specific intelligence.
    However, it's important to ensure that our State and local 
partners as well as the private sector entities are aware of 
the terrorist focus on such high value targets. Many such 
examples are present here in the West.
    As you know from previous reporting, in our major 
metropolitan areas, such as Washington, New York, Los Angeles, 
and Chicago, we have numerous facilities that offer this type 
of high value targets. We have learned from detaining 
debriefings that al-Qaeda is interested in a range of 
facilities from transportation, infrastructure nodes to 
apartment buildings and tall buildings.
    Some domestic targets may include symbolic structures, 
particularly the White House, the Capitol, and other Federal 
buildings here in the West. Symbolic icons might include tall 
buildings and other high profile landmarks. Headquarters for 
major corporations and financial centers would achieve their 
intent of disruptions of our economy.
    The energy sector including the U.S. nuclear facilities, 
petroleum, tank farms, and refinery facilities are also target 
lists for al-Qaeda.
    The railway, the mass transit systems, and things such as 
bridges and tunnels also have been reported as potential for 
al-Qaeda. The dams and water systems have also been addressed 
in some of the debriefings. Public venues, we can no longer 
conduct a large scale public event without having a detailed, 
well rehearsed security plan in advance.
    And, finally, aviation remains a target since September 
11th operation of al-Qaeda's greatest success and one that 
their masterminds consider worth repeating.
    Late last month, the Department issued a threat advisory 
warning of a potential hijacking end of summer plot in the U.S. 
and abroad.
    I would like to say here, going back to the last year, when 
Congressman Shadegg had asked me to do an independent 
assessment, I will tell you I was a holdout in the intelligence 
community on that report. Secretary Ridge has an undaunting, 
challenging task of making that announcement to the American 
people.
    As we understand the limited resources of the states and 
private sectors to expend their resources to enhance security, 
securities, it is my responsibility to ensure that I am picking 
up every rock, every piece of raw material and analyzing it to 
the greatest extent possible so that I can look the Secretary 
in the eye and say, ``I agree that this is a credible threat 
that needs to go out.''
    I delayed the process probably for 24 hours because I had 
to be convinced, and I will tell you I was convinced in the end 
based on the intelligence report that I reviewed.
    But I just want to share that with the panel that we in the 
Department of Homeland Security are very sensitive to the 
State, local, and private sector on how they need to prepare 
for it. I think the focus of our Homeland Security advisory 
bulletins and information bulletins when we put those out, we 
try to put something out that says, ``Here is a threat, but yet 
here are protective measures that you may consider to employ as 
we address this threat.''
    We want to do more to help our partners. And when I say 
``our partners,'' I mean the State and local Americans that are 
out there that are doing such a tremendous job. They are a 
wealth of information for us as well in being able to provide 
information that can help us connect the dots.
    I'd like to just close here, then, and just to say that our 
robust and comprehensive independent assessment, we are 
continuing to refine that. It's not a push-pull system yet. We 
are still pulling for information.
    As I said before to the committee, ``Parrish has not been 
told no yet when he's asked for a piece of key intelligence,'' 
and the day that Parrish is told no, you will be the first to 
know, sir.
    We are just at the beginning, though. We have a long ways 
to go in this processing. Hearings such as yours today provides 
each of us, though, an opportunity to learn and look back at 
where we have come as a Nation since that dark day in our 
history on September 11th.
    We need to recognize that thanks to you and to your staffs 
and our Federal agencies, including all law enforcement and 
intelligence agencies, the dedicated State and local 
authorities in the private sector, and the American people in 
general have risen to the challenge of the new enemy threat, 
the new enemy threatening our security.
    The coordinated efforts of all of us, sharing, in a key 
part sharing the challenges and responsibilities together, we 
have made a difference, and our Nation has not suffered another 
attack. We must not become tired or grow weary. The dedication 
and commitment must continue, and above all, continuous prayers 
for the safety and security of this great Nation.
    Thank you, sir, for this hearing and the opportunity. I 
look forward to your questions.
    Mr. Gibbons. Thank you very much, Secretary Parrish. And I 
do apologize. I should have said Secretary Parrish when I 
introduced you earlier. That was my mistake.
    Your testimony and statement is very enlightening, very 
helpful to the community, and I am sure the public was 
listening to it as well.
    Right now we'll turn now to Mr. Larry Todd. Welcome, and 
the floor is yours, Mr. Todd.

STATEMENT OF MR. LARRY TODD, DIRECTOR, SECURITY, SAFETY AND LAW 
  ENFORCEMENT, BUREAU OF RECLAMATION, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Todd. Thank you. Mr. Chairman, members of the 
committee, it is a pleasure to be here today to provide this 
report on what the Bureau of Reclamation is doing to address 
the security needs of its water and power facilities in the 
Western United States.
    My name is Larry Todd. I am the Director of Security, 
Safety, and Law Enforcement for the Bureau of Reclamation.
    Reclamation is responsible for over 350 major dams and 
reservoirs and 58 power plants in the West. In carrying out 
this responsibility, the security and safety of the public, and 
our employees and the facilities is our highest priority.
    Reclamation has had a long-standing and effective safety 
program for public and employee safety, as well as dam safety. 
However, our efforts in establishing a separate security 
program only began in 1995. At the time, we hired a security 
officer, complete security reviewed, established work levels, 
and began hardening our facilities. Reclamation thus had 
various security measures and response plans in place prior to 
September 11th. Those measures were instrumental in our ability 
to respond quickly and effectively to the events of that tragic 
day.
    Since 9-11, Reclamation has significantly improved its 
security efforts by implementing long-term security programs. 
Key elements of the program include establishing a security, 
safety, and law enforcement office; conducting vulnerability 
risk assessments at all major dams and facilities; contracting 
for a top-down security programs review by outside experts; 
implementing Reclamation's new law enforcement authority and 
implementing various informational and personnel security 
measures and polices.
    Currently, we have designated 280 facilities that are being 
assessed by the end of 2005. This past year we have assessed 
and implemented security measures on 55 of those most critical 
facilities, and 12 Reclamation Visitor Centers.
    On these facilities, we have implemented well over 50 
percent of the accepted recommendations. We have developed 
personnel security, designating for background checks when 
necessary for both employees and contractors who access 
facilities.
    We have instituted an information policy to more closely 
control sensitive information about facilities. And we have 
staffed the security and law enforcement functions with in-
house expertise as well as experts recruited from other 
agencies. We have also created secure office space to 
effectively deal with classified and control documents and have 
established a secure communications systems.
    We are progressing very well in established a secure 
security program with Reclamation. For example, with Hoover 
Dam, we have made several security-related enhancements since 
9-11. First, we have enhanced our relationship on security 
matters with the Federal, State, and local law enforcement 
agencies, including Clark County, Las Vegas Metro Police and 
the National Park Service. We also maintain a close working 
relationship with the Arizona Department of Public Safety, 
Division of Criminal Intelligence, and its Nevada counterpart 
in sharing relevant intelligence information.
    Second, we have increased the number of law enforcement 
officers and security guards on site. We then enhanced 
checkpoints on both the Nevada and Arizona side and added 
lighting and electronic monitoring surveillance devices at 
selected sites.
    Third, we have limited traffic across the Dam to passenger 
vehicles, vans that are easily inspected, and short-haul trucks 
with permits. All vehicles are subject to random checks. The 
long-haul trucks are being re-routed around the Dam through US 
95 and Interstate 40.
    Fourth, we have added physical security upgrades and 
modified visitor tours.
    In conclusion, I believe that Reclamation has made 
considerable progress to date in ensuring our dams and other 
facilities are much more secure today than they were on 
September 11th.
    However, we recognize that a great deal of work still needs 
to be done as more risk assessments are completed and new 
vulnerabilities and threats are discovered. Reclamation remains 
fully committed to the safety and security of the public, our 
employees, and our water and power facilities which provide 
these vital resources to so much of the West.
    Mr. Chairman, that concludes my prepared remarks, and I am 
ready to address any questions the committee may have.
    Mr. Gibbons. Thank you very much, Mr. Todd. We appreciate 
your statement and your comments here as well. They have been 
very helpful to us.
    [The statement of Mr. Todd follows:]

                PREPARED STATEMENT OF MR. LARRY L. TODD

My name is Larry L. Todd. I am Director of Security, Safety and Law 
Enforcement for the Bureau of Reclamation. Mr. Chairman, it is a 
pleasure to be here today to provide this report on what the Bureau of 
Reclamation is doing to address the security needs of its water and 
power facilities in the Western United States. Reclamation is 
responsible for over 350 major dams (including 58 power plants) and 
reservoirs in the West, and the security and safety of the public, our 
employees, and our facilities is our highest priority.

Reclamation has a long-standing and effective safety program for public 
and employee safety, as well as in dam safety. However, our efforts in 
establishing a separate security program only began in 1995. At that 
time, we first established the position of Security Officer, performed 
initial vulnerability assessments at five of our dams, and formalized 
the emergency action plans exercise program. In subsequent years, we 
continued to perform more in-house vulnerability assessments at key 
facilities, developed a data base on resulting recommendations for 
improving security, and implemented site security improvements. These 
improvements consisted of measures such as ensuring access doors and 
gates were locked, improving lighting of key areas, and increasing 
employee security awareness. We also developed continuity of operations 
plans for all our major offices and developed threat response measures 
for 4 different alert levels. Reclamation worked closely with other 
Federal water and power resource agencies through the Interagency Forum 
on Infrastructure Protection in developing risk assessment tools and 
sharing technologies, and also participated in the FBI Joint Terrorism 
Task Force to share intelligence information. The coming of the new 
millennium and the concern over Y2K issues raised our awareness of 
electronic security. These events resulted in Reclamation contracting 
with the United States Department of Energy's Sandia National 
Laboratories for an IT Security assessment.

Reclamation had various security measures and response plans in place 
prior to September 11, 2001 (9-11). Those measures were instrumental in 
our ability to respond quickly and effectively to the events of that 
tragic day. On 9-11, we immediately implemented high alert levels and 
threat response measures commensurate with those levels. This program 
included closing all visitor centers and halting all tours, posting 
Department of the Interior and State law enforcement officers at major 
dams on a 24/7 basis, increasing security patrols at all our 
facilities, and shutting down our web site to review it for sensitive 
information and to protect potentially sensitive information during the 
review process. Reclamation's response activities were closely 
coordinated within the Department of the Interior, which provided law 
enforcement assistance. This was necessary since, at that time, 
Reclamation did not yet have its own law enforcement authority. We 
began working with the new White House Office of Homeland Security and 
other Federal infrastructure agencies to share information on potential 
threats and on response measures being taken. There were no 
interruptions in any of our water or power deliveries as a result of 
the events of 9-11.

In the months following 9-11, Reclamation developed and provided 
guidance to our regional and area offices on critical considerations 
such as: addressing chemical, biological, and radiological attacks; 
ensuring that necessary emergency management actions are taken; 
protecting and safeguarding information and records; and providing for 
tourism security, particularly as it relates to international visitors.

Reclamation's four-level threat-response measures were revised to match 
the five-color- level alert system established by the Office of 
Homeland Security. Under these measures, there are specific security 
steps to be taken at each facility, depending on the type of facility 
it is, for each of the national threat levels. There are also exact 
procedures in place for ensuring that, in transitioning from one alert 
level to the next, certain tasks are met, such as: timely communicating 
the transition; ensuring that all necessary measures are implemented in 
a timely manner; and transmitting situation reports to keep management 
informed of changing conditions. These procedures have been tested and 
successfully applied on several transitions to date.

In addition to these short-term responses, Reclamation recognized the 
need to develop a comprehensive long-term security response plan. Key 
elements of the long term response plan that were developed include: 
establishing a Security, Safety and Law Enforcement Office; conducting 
vulnerability and risk assessments at all dams and major facilities; 
contracting for a top-down security program review by outside experts; 
implementing Reclamation's new law enforcement authority in Public Law 
107-69, and implementing various informational and personnel security 
measures and policies.

In 2002, Reclamation Commissioner John W. Keys, III established the 
Office of Security, Safety and Law Enforcement, and appointed me as the 
Director reporting directly to the Commissioner. The Office is located 
in Denver, Colorado and it includes the previously existing 
occupational safety and health, dam safety, emergency management, and 
security functions, as well as Reclamation's new law enforcement 
function. We have staffed the security and law enforcement functions 
with in-house expertise and with experts recruited from other agencies. 
We also created secure office space to effectively deal with classified 
and controlled documents, and have established secure communication 
systems.

To facilitate the potential re-opening of the 12 major visitor centers 
at Reclamation facilities, we contracted with Sandia National 
Laboratories to conduct security risk assessments at our visitor 
centers. Following implementation of the recommended security 
improvements--which included posting armed guards at visitor centers 
and on tours, screening visitors, and limiting tour routes--visitor 
centers were re-opened to the public and tours were re-initiated.

Under Reclamation's Safety of Dams program, we have 252 ``high and 
significant hazard'' dams, which are facilities where failure could 
cause loss of life or significant economic damage. Reclamation 
committed to conducting vulnerability and risk assessments at all those 
facilities, as well as at 28 other critical facilities, such as power 
plants, pumping plants, and canals. Using carefully defined key factors 
to rate each facility, we prioritized all 280 facilities to be 
assessed. In 2002, Reclamation contracted with security experts at the 
Defense Threat Reduction Agency, Lawrence Livermore National 
Laboratories, and five other private security firms, to have our 55 
most critical facilities assessed for risk, vulnerability and security. 
Those assessments were completed in 2002. The recommendations resulting 
from those assessments were analyzed by Reclamation's security experts 
with assistance from experts from the Corps of Engineers and Sandia 
National Laboratories. These recommendations were then presented to 
management for development of a final decision document for 
implementing the accepted recommendations to enhance security 
procedures and fortify the facilities. Approximately 54% of the nearly 
1,400 recommendations resulting from the first 55 risk assessment 
reports have been implemented to date, and many others are in the 
process of being implemented. Risk assessments are being initiated in 
fiscal year 2003 at an additional 101 facilities; the remaining 
facilities will be assessed in fiscal year 2004.

For example, at Hoover Dam we have made several security related 
enhancements since 9-11. First, we have enhanced our relationship on 
security matters with the Federal, State, and local law enforcement 
agencies, including Clark County, Las Vegas Metro Police and the 
National Park Service. We also maintain a close working relationship 
with the Arizona Department of Public Safety, Division of Criminal 
Intelligence and its Nevada counterpart in sharing relevant 
intelligence information. Second, we have increased the numbers of Law 
Enforcement Officers and Security Guards on site, enhanced checkpoints 
on both the Nevada and Arizona side with lighting and barrier gates, 
and added lighting and electronic monitoring and surveillance devices 
at select sites. Third, we have limited traffic across the Dam to 
passenger vehicles, vans that are easily inspected, and short-haul 
trucks with permits. All vehicles are subject to random checks. Long-
haul trucks are being re-routed via US 95 and Interstate 40. Fourth, we 
have added physical security upgrades and modified the visitor tour.

A top-down review of Reclamation's security program was conducted by 
Sandia National Laboratories in 2002 and included members of the 
Interagency Forum for Infrastructure Protection. The purpose of the 
review was two-fold: (1) to evaluate the current organization, 
policies, and processes of Reclamation's security program by reviewing 
numerous security documents and interviewing all levels of Reclamation 
and Interior personnel, and (2) to make recommendations for a mature, 
sustainable security program. The final report was presented to 
Reclamation's senior management in June 2003 and they are currently 
considering the review's findings and recommendations.

Until the enactment of Public Law 107-69 on November 12, 2001, 
Reclamation had no law enforcement authority. Public Law 107-69 
provided Reclamation with the authority to enforce Federal laws on 
Reclamation projects and lands and to contract for law enforcement 
services with other Federal, state, Tribal, or local law enforcement 
agencies. Following enactment, Reclamation published regulations on 
public conduct on Reclamation lands and at Reclamation facilities, and 
on the use of non-Interior law enforcement officers to enforce Federal 
laws on Reclamation lands. (It should be noted, however, that at Hoover 
Dam, Reclamation has long had authority under different statutes and 
regulations to maintain an armed police force.)

Since 9-11, in the area of personnel security, we have put in place a 
policy requiring background checks of our employees and contractors. 
This includes identifying additional positions needing security 
clearances. We have also implemented a policy on restricting and 
protecting security-sensitive information and have installed perimeter 
security around our information technology systems.

In fiscal year 2002, Reclamation received $30.2 million in supplemental 
appropriations for our security and counter-terrorism efforts. That 
funding was used primarily for guards and surveillance, studies and 
risk assessments, law enforcement and interim security equipment. In 
fiscal year 2003, our $28.4 million appropriation for site security/
anti-terrorism was increased by $25 million through a supplemental 
appropriation, for a total of $53.4 million. Those funds are being used 
for guards and surveillance, including those needed to maintain our 
continuing heightened state of alert at all our facilities; for 
additional risk assessments at key facilities; for further 
implementation of our law enforcement program; for law enforcement and 
security equipment; and for hardening our facilities through the 
implementation of recommendations in the completed vulnerability risk 
assessments.

In conclusion, I believe Reclamation has made considerable progress to 
date in ensuring our dams and other facilities are more secure today 
than they were on September 11, 2001. However, we recognize that a 
great deal of work still needs to be done as more risk assessments are 
completed, more recommendations are accepted for implementation, and 
new vulnerabilities and new threats are discovered. Reclamation remains 
fully committed to the safety and security of the public, our 
employees, and our water and power facilities which provide these vital 
resources to much of the West.

Mr. Chairman, that concludes my prepared remarks and I stand ready to 
address any questions the Committee may have.

    Mr. Gibbons. We turn now to my good friend, Mr. Bussell, 
Colonel, retired, now the head of this State's Department of 
Homeland Security for Nevada.
    Jerry, welcome.

  STATEMENT OF COLONEL JERRY BUSSELL, SPECIAL ADVISOR TO THE 
           GOVERNOR, NEVADA HOMELAND SECURITY OFFICE

    Colonel Bussell. Thank you very much, Mr. Chairman, 
distinguished members of the committee, as you can see in my 
written statement, I plan to address five areas--funding, 
communication interoperability, critical infrastructure, 
homeland advisory system, and Nevada's need for a civil support 
team.
    I'd like to deviate from that just a little bit. 
Congressman Berkley's statement so cleared walked right down my 
funding list, I think it would be repetitive that I go over 
those things again. I would just like to jump over and talk 
about communication interoperability.
    But before I go there, there's a couple of things that I 
would add in the areas of vulnerability in the funding. Las 
Vegas has 18 of the 20 largest hotels in the United States, and 
they are located on our 2.1 mile Las Vegas Strip. Understanding 
that the Las Vegas Strip is not actually in Las Vegas, it is in 
the unincorporated greater Clark County, that 11 of those 
largest hotels are right next to McCarran Airport, which is the 
seventh busiest airport.
    At any one time, 24/7, 365, the Las Vegas Strip has more 
people than Fort Lauderdale, Florida, or Salt Lake City, Utah. 
If that is not a vulnerability, Mr. Chairman, I don't know what 
is.
    Moving on, in the areas of communication interoperability, 
should an incident occur, it's important that first responders 
have the ability to talk with each other. I think that is a 
pretty commonly accepted statement, one of the fireman would be 
able to talk with the policeman and both to be able to talk to 
the first medical responder. In a perfect world, wouldn't it be 
nice if every policeman and fireman and medical responder could 
talk to each other anywhere and everywhere.
    However, at this time we do not live in a perfect world. We 
live in a world that is at war. But we do need to build a 
system where a first responder's leadership or the first 
responder leader could talk. The incident commander could have 
a full chain of communication abilities, not just for voice, 
communications for the computer, and maybe even the future, the 
video. An instant commander would need the ability to talk not 
only to the firemen, the policemen, or the emergency medical 
responders, but, for example, he may need to talk or she may 
need to talk to Department of Transportation, the water 
company, the power company, schools, or those other first 
responders that we don't normally think of, some people like 
our civil support team, Hazmat teams, the National Guard, maybe 
the directors of the different securities or the security 
directors of our different hotels, not to include the number of 
Federal agencies, whether it be the FBI, ATF, DEA, ICE, and on 
and on and on.
    Nevada is probably no more unique in the areas of 
communication interoperability than many other states. Since 
there is no perfect system available, we are looking at a 
number of options, but there's a clear problem. With Nevada's 
current shortfall, it is going to be almost impossible to 
completely fund even a partial system without help.
    That completes my initial formal remarks, Mr. Chairman. I 
look forward to your questions.
    Mr. Gibbons. Thank you very much, Mr. Bussell.
    [The statement of Colonel Bussell follows:]

                PREPARED STATEMENT OF MR. JERRY BUSSELL

Mr. Chairman, it is a pleasure for me to have this opportunity to 
testify. You have been provided a copy of my written testimony for the 
record.
In my written testimony, I will address five areas: funding, 
communications Interoperability, critical infrastructure, homeland 
security advisory system, and Nevada's need for a Civil Support Team.
Due to time constraints this morning, I will only formally discuss 
funding.

FUNDING
As you are aware, I have been critical of the Department of Homeland 
Security's funding formula for some time. As I understand it, current 
Homeland Security formulas are based on three criteria: the 2000 
Census, critical infrastructure and vulnerability assessments. Before I 
proceed, I must state, I was personally disappointed that Las Vegas was 
not Included In the fiscal year 1903 Supplemental Budget Grant given 
directly to 30 cities.

We can all agree, Las Vegas is a unique city in itself, but the Las 
Vegas Valley is even more unique. The majority of people think the Las 
Vegas Strip is in Las Vegas. Most of it is actually In the 
unincorporated area of Clark County. The greater Las Vegas Valley 
includes the cities of Las Vegas, North Las Vegas, Boulder City, 
Henderson and unincorporated Clark County, where most of the Las Vegas 
Strip and the cities of Jean and Primm, Nevada are located.

If you merely look at the population of Las Vegas as shown in the 2000 
Census, one receives an Incorrect picture. The 1.7 million population 
of the Las Vegas Valley is significantly greater than the 400,000 
population of the City of Las Vegas. The figures used by the Department 
of Homeland Security must not have included the 1.7 million Las Vegas 
Valley residents.

To receive a clear picture of our needs, one must look at the 1.7 
million Las Vegas Valley residents; then include the 40 million plus 
tourists. 

In the vulnerability area, Las Vegas has 18 of the 20 largest hotels in 
the United States, located on a 2.1 mile strip. It includes the first 
11 largest hotels. Right next to the Las Vegas strip is McCarran 
International Airport, which is the 7th busiest airport in the United 
States.

To put it another way. Our tourist population on the Las Vegas Strip, 
on any given night, exceeds the population of Ft. Lauderdale, Florida 
or Salt Lake City, Utah.

Now I want to talk about critical infrastructure. Without going into 
significant detail, there are a number of critical infrastructure and 
key assets located In the Las Vegas Valley. Most prominent is Hoover 
Dam. Hoover Dam not only supplies water for most of the southwestern 
United States, It is a major source of electric power.

Why these unique factors were not considered in the Department of 
Homeland Security's funding equations seems strange.

It is my understanding there is a Senate Bill, that has passed 
Committee, addressing some of these funding inequities. I am asking for 
your support in changing the Department of Homeland Security's funding 
formula.

Funding to protect the citizens of this great country should not be 
based on their street address--but on where they are should an incident 
occur.

COMMUNICATIONS INTEROPERABILITY
Should an incident occur, it is important that first responders have 
the ability to talk with each other. One would want the firemen to be 
able to talk with a policeman, and both to be able to talk to a first 
medical responder. In a perfect world, It would be desirable for every 
policeman, fireman and emergency medical responder to be able to talk 
with each other. However, at this time, we do not live in a perfect 
world. To build the system where every first responder could talk with 
each other Is probably not practical and may be cost prohibitive.

Nonetheless, we must have a system where first responder leadership can 
communicate with one another. Where an Incident Commander has a full 
range of communications ability-not Just voice (radio) communications - 
but computer and maybe In the future, video. An Incident Commander 
needs to be able to communicate with a number of organizations. For 
example, the Nevada Department of Transportation, the water company, 
the power company, schools, and other special response units like the 
National Guard, Civil Support Teams, HAZMAT teams, or the directors of 
security at our major hotels. I have not Included federal agencies like 
the FBI, ATE DEA, ICE, and on and on.

With Nevada's unique needs and no perfect system readily available, we 
are looking at a number of communication options. With the state's 
current funding shortfalls, it is going to be almost impossible to fund 
even a partial system without federal help.

CRITICAL INFRASTRUCTURE PROTECTION
With the recent multiple power outages in the Northeastern United 
States, critical infrastructure is on the forefront. Everyone knows 
that water, power, banking/finance, and transportation are vitally 
important to the United States.

Critical infrastructure, to me, is reliability and availabllity-based. 
To assure reliability and availability, we must protect our critical 
infrastructure. To protect the critical Infrastructure, a meaningful 
vulnerability assessment is necessary--a vulnerability assessment based 
on a national standard.

Yet there is no national plan clearly defining roles and 
responsibilities of critical Infrastructure protection in either the 
public or private sectors. There are no objectives, milestones, or time 
frames leading to achievable performance measures.

Over 80% of our nation's critical infrastructure is in the private 
sector, however, they are operating in a vacuum. There is no immediate 
method of notification of threat or any way to give our critical 
infrastructure specific, actionable Information on a timely basis.

We ask our private entities to perform vulnerability analysis and 
correction using their own resources. There must be some way to help 
private and semi-private entities with public funding. It could be in 
the form of specialty tools, training, training aids, standardized 
vulnerability assessments or tax incentives.

CIVIL SUPPORT TEAMS
    Nevada does not have a Civil Support Team. Nevada's Adjutant 
General, Major General Giles Vanderhoof, lists the need for a Civil 
Support Team as his number one unit priority. I certainly agree with 
the Adjutant General based on my recent observations during DP-03 where 
a clear need for such a team was evident.
    Mr. Chairman, I know you have personally been working on this 
project for several years, but I cannot emphasize any stronger how 
important this critical asset is for Nevada.

HOMELAND SECURITY ADVISORY SYSTEM
The Homeland Security Advisory System is vague, difficult to explain, 
and lacks public confidence. The color-code system initiated by the 
Department of Homeland Security in March of 2002 has not worked well. 
It does not define what states, cities, businesses or Individuals 
should do at a particular color code level. It clearly does not explain 
what should happen when the color code changes--either up or down.

I would like to recommend several methods to improve the color code 
system, Including Issuing specific warnings to targeted regions or 
facilities. I would further recommend that certain protective measures 
for specific states and cities be channeled regionally If they do not 
affect the entire country.

Changes to the Homeland Security Advisory and Color Code System should 
be Initiated Immediately.

Public confidence is at stake.

Thank you for allowing me the opportunity to testify today.

    Mr. Gibbons. We'll turn now to questions from the 
committee.
    And let me begin by thanking each of you once again for 
taking time out of your busy day to come here before the 
committee and provide us your testimony.
    My question would first go to Mr. Parrish. Just on a 
generality, Mr. Parrish, and knowing the fact that I was one of 
the architects of the language which created the Homeland 
Security, the Department of Homeland Security, what is your 
assessment after one and a half years of the Department's 
capabilities? Where are we?
    We have got a massive new organization, second largest 
department in the United States Federal Government. We merged 
more than 100 separate agencies together in a colossal effort 
to address the issue of homeland security and issues that are 
pertinent to that.
    What is your assessment of the functionality? How is it 
doing after one and a half years? Is this a toddler that is up 
and walking? Is it ready to run? Is able to talk? Where are we 
in that?
    Mr. Parrish. Sir, it's a very timely question. Yesterday 
morning I was at the John F. Kennedy School of Government at 
Harvard speaking to the national--international security 
manager's course, which, as you know, has a significant 
audience of tremendous leadership from around the Federal 
Government as well as international equal.
    The point that I made in there to a similar question was 
comparing us to the Department of Defense, we're the second 
largest--if you look at the Department of Defense since 1947, 
actually when we demonstrate our successes in the war in Iraq 
in 1991, we kind of got it right, from 1947 to 1991.
    The Department of the Homeland Security is coming on up its 
six months anniversary. It's pulling together those agencies 
and bringing each one to the table to be able to make sure that 
we are having the interoperability, as Jerry indicated, remains 
a process that we'll continue to work on very closely and very 
diligently.
    I think what we are finding is the success is that now the 
Federal Government and interagency because of our change in 
liaison programs, as I said earlier in opening remarks, having 
people from those agencies present is really assisting in that.
    I think when we look back at some of the initiatives that 
our organization brought to us within the department, it 
continued to build on those. I look at the Customs programs and 
what they are doing on the borders to enhance the security 
screening there, the outreach of the container security 
initiative overseas. If you look at that, the department is 
engaging heavily with those organizations to make sure that we 
have this defensive depth and later strategy, if you will, of 
trying to bring together the best practices, the best 
capabilities of all the agencies to be able to detect and 
prevent a terrorist activity, detect as far out as possible to 
prevent any type of activities here in the United States.
    I think the area that we need to move faster on, and I have 
made notes to myself on this, is hearing from State and local 
and the private sector because the wealth of information out 
there is what we need to hear from them and also that we need 
to make sure that we are getting to them.
    I think the Homeland Security advisory bulletins and 
information bulletins that we have been putting out, we've been 
getting good feedback from that.
    An example of that, I think, is showing now that other 
agencies recognize the importance of the department and what we 
are trying to do and serve the American people in the private 
sector. Because immediately after the attacks of Al Kot on May 
11th, at that time, I was the associate director in the 
Terrorist Threat Integration Center. When I got to work that 
morning at six o'clock and began looking at the very sensitive 
national security type intelligence information that was coming 
out from those reports, I immediately contacted then the 
assistant secretary Paul Redmond back at the Department at 
Homeland Security who was the information analysis secretary, 
assistant secretary.
    And I said, ``Paul,'' I said, ``Start working on protective 
measures because we have seen some new tactics and techniques 
employed by al-Qaeda in this attack. I will work the terror 
line with the CIA and get this information downgraded so that 
we get it out in the hands of State, local, and private 
sector.'' So talking to hotels and industries and chemical 
facilities and those things.
    And to the credit of the interagency process, by the end of 
the day, we had out on the street a document which we have 
gotten remarks that it not only quickly described what happened 
in Al Kot, a breakdown of the three compounds and the tactics 
and techniques employed by al-Qaeda, but we had protective 
measures that would help the states and locals be able to 
prioritize what they were looking at and trying to support the 
expenditures of limited resources.
    So I think that is an example of how the Federal Government 
recognized the mission of the department in conveying this type 
of information. So I think we are moving the ball forward. We 
have got a long ways to go, but I think right now we are making 
great strides in making that happen.
    Mr. Gibbons. Mr. Secretary, many people in the audience 
here time and time again hear about our security warning status 
and the levels of security, whether it is yellow today, orange 
tomorrow, or red, and wonder how we get to each one of those.
    Whether or not, we are vertically integrating the 
intelligence, as you have already talked about, down to our law 
enforcement first responders that allow for the average citizen 
out here to feel safe, that someone knows about the 
information, that someone knows about the criticality of this 
intelligence, that is on our local first responder's list that 
can assess that because the average public would never be able 
to say, ``Well, what does the orange threat mean to me? I'm 
going from my home out to Lake Mead, for example, am I at 
risk?'' They will never know that.
    How is that vertical integration going and what are your 
responses to those people who will probably come later to say 
that they don't feel they are getting enough information?
    I guess my final part of that long detailed question is how 
is the reverse of that information flowing? Are you getting 
critical information from first responders who are by far and 
away our best intelligence source? When a policeman stops an 
individual that is on a suspect list, does that information go 
up vertically quick enough? How is the two-way flow of that 
information going.
    Mr. Parrish. Sir, if I could start, kind of work backwards 
a little bit, but on that last question, the flow of 
information coming in, you remember Operation Liberty Shield, 
as this Nation began to commence hostilities in Iraq, I was 
presented the great opportunity on Friday afternoon, the 28th 
of February, the day before the department stood up to develop 
Operation Liberty Shield and bring it to the White House by 
four o'clock Monday afternoon. It was a very long weekend, as 
you might imagine, but to the credit of the government, we had 
25 Federal agencies working diligently throughout that weekend 
to develop the protective measures that we employed in Liberty 
Shield to include the active support there of the Bureau of 
Reclamation and the Department of Interior, and each agency had 
their protective measures.
    Once we initiated and commenced Liberty Shield, the 
operations center received a report one night from a local 
police department up around the oil facilities outside of 
Philadelphia. As you go up the Delaware River, you see some oil 
facilities. They picked up two individuals that apparently had 
been surveilling those oil facilities.
    At the same time the Coast Guard came in with their report. 
We had a foreign flag oil tanker in the Delaware River getting 
ready to bring its oil. We ran the manifest on the crew. The 
captain of the vessel was an Iraqi. The senior first engineer 
was an Iraqi, and 15 Pakistani crew members.
    Was there a correlation here to what was going on? In the 
end, no, but we didn't take any chances. We removed the captain 
of the vessel. We brought on a Coast Guard crew to drive the 
vessel up to offload that, and the another two individuals were 
turned over to the JTTF in Philadelphia for further 
questioning.
    It's that type of information flow that was coming into the 
operations center and exchange of information. So the eyes and 
ears that are out there in the streets of America are front 
line defenders are critical to get that information in.
    The process of going to change the national threat level is 
a tremendous effort, as you might imagine, because Secretary 
Ridge takes great, great concern over this.
    I have had the privilege and the opportunity to be with him 
in the last three times that we have made that decision. What 
we are trying to do right now in the homeland security advisory 
system is to go back and take a look at that.
    Is it practical to say that the entire country orange, when 
yet the intelligence we are looking at may only be focusing on 
a threat to the chemical facility or it may only be focusing in 
an area around the northeast?
    But we have to be very careful, though, that we don't 
convey that, and then the rest of the country says, ``Well, 
drop my pack. It's not--I don't have to worry about it.''
    So we are trying to look really close at how we can go back 
and take a look at the homeland security advisory system in 
that regard.
    I think we have to do better in working with our State and 
local authorities in being able to help them understand that. 
As many may think, there is this great fountain of top-secret 
SCI, sensitive intelligence sitting there in Washington, and 
it's not getting handed down.
    I wish there was because I would be fighting everyday to 
make sure it was getting downgraded.
    But, you know, to our successes now and the people that we 
have picked up, that's the good news. Now we may be not quite 
getting as much of the information we had gleaned before. But I 
think it's important to recognize getting the system explained 
to the State and locals.
    An initiative that I have under--the program known as risk-
net, which is a regional information sharing system. We have a 
pilot program we're kicking off this month, and right now we 
are going to target just nuclear power facilities. But in risk-
net now, we'll have the nuclear facilities be able to report to 
us any suspicious activities, and we're initiating this in six 
states.
    I want to build on this as quickly as possible so that we 
can use risk-net for this dialogue that will go back and forth 
between our operations center, getting information out to the 
State and local. Risk-net covers, I want to say, it's about 65 
State and local authorities around the country. I want to be 
able to have a website there so we can put up the daily 
homeland security intelligence summary which will be at law 
enforcement sensitive or official-use only level.
    And the second piece that I want to do, and you have heard 
talk about Parrish's concept of the hybrid analyst. In this war 
we have, we need to create an individual who is looking at the 
operational environment as well as the intelligence, who 
understands the Department of Homeland Security's operational 
environment. This fusion will be built around some of our 
subordinate agency people that are coming in, agents, 
inspectors, and that type, we'll have some analysts, and we 
will create this hybrid.
    We also now are working with emergency defense 
preparedness. We're reviewing a program of instruction that 
we're going out to State and locals on intelligence analyst 
training. I want to be able to prioritize where we are going to 
send that, and I want to be able to regionalize it so that we 
have, for example, a course that may come out here to Nevada, 
and we bring in analysts from the western region. So when they 
graduate from this course, and I'm not sure exactly whether 
it's going to be one week or two weeks, they will then have a 
counterpart over in California or down in Arizona and say, 
``Have you seen this? We just pulled this guy over, and we 
found in part of his documents here a hotel receipt from 
Arizona. Do you know anything about this?'' And this type of 
information sharing.
    The next step to that is I want to bring these analysts 
into our fusion cell in Washington where they would spend two 
weeks. They would see then the type of information that we are 
getting in there, and I think it would be a better appreciation 
of exactly how this is all processed.
    So I think that we are moving forward in getting that 
information out as quickly as possible. That is my number one 
priority in working with the sensitive intelligence that comes 
out and getting it downgraded into the hands of the State and 
the locals as quickly as possible. We have to get it down to 
those operators in the field because they will be the ones that 
either going to prevent, detect or deny terrorists from 
conducting an operation here in the United States.
    Mr. Gibbons. Secretary Parrish, I have a number of other 
questions for you, but I know that the other members of this 
panel, Mr. Shadegg, would like to also engage you in some 
questions, and I don't want to take up the whole time. So I'll 
ask Mr. Shadegg for questions.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Gentlemen, I have questions for each of you, so I'm going 
to ask you to be as brief as you can in your responses.
    Mr. Parrish, I want to thank you for your testimony before 
the committee previously and for your testimony here today. I 
find in very informative and helpful. I think I expressed the 
last time you testified the admiration I have for the 
incredible challenge we have given the department, to try to 
stand up a department of this size and scope and to try to get 
all these diverse and disparate agencies working together in a 
common effort, I think, is a daunting task. As you pointed out, 
you are barely six months into it, and, yet, I think the 
statement you make in your testimony that the Nation is, in 
fact, safer now was accurate. And I think it can be safer 
still.
    But I have great admiration for the task that Secretary 
Ridge is doing with trying to pull all this together, 
especially, I spent some time in law enforcement myself, the 
years I was in the Attorney General's office dealing the 
disparate interests of all the law enforcement agencies in 
Arizona and trying to get them to pull together rather than be 
at war with each other was a significant challenge. I can't 
imagine trying to do it nationwide.
    I want to ask you a few specific questions directly from 
your earlier testimony. There is a statement in your testimony 
that says, ``Our Information Analysis Office,'' which is what 
had, ``has the ability to conduct its own analysis of the 
security information you get.'' I'm very pleased to hear that. 
As you know, the statute requires you to be able to do that.
    Can you give me here today an idea of how many people are 
engaged in that task at this time and whether there is yet room 
to grow in that area?
    Mr. Parrish. Yes, sir. We are still somewheres right around 
about the 55 people. Again, that's analysts as well as the 
liaison from the other agencies. We are looking to grow. As you 
know, we are moving into a larger facility. The time line on 
that may be slipping a little bit, but we are pushing very 
quickly to do that because once we do, we'll be able to bring 
in the other individuals.
    When you look across the Department of Homeland Security 
and at the other intelligence organizations that exist, there 
are a number of analysts in there. It could be in excess of 800 
across the other departments. We are going now to look at that 
and making sure we don't have duplication of effort. In fact, 
maybe some of those analysts may need to be migrated into the 
Information Analysis Office, which will increase our 
capabilities.
    Mr. Shadegg. I guess the second question, and the only 
other one I have for you this morning, and that is in your 
prepared statement says, ``We share more information with 
people who need it including our State and local partners.'' 
Could you briefly summarize for the committee precisely how you 
share that information with State and local officials?
    And I'll warn you in advance, I'm going to ask Mr. Bussell 
how he sees that working.
    Mr. Parrish. Right now what we're pushing out is the 
information bulletins and the advisory bulletins. We coordinate 
with the FBI when they put out their weekly intel summaries, 
that goes out every Wednesday, and also when they put out an 
advisory through the NLETS system.
    The success, I think, on the advisory bulletins and 
information has been being able to engage members of the 
intelligence community and getting a tear line. A tear line, as 
you know, is getting a sensitive or highly classified piece of 
intelligence tear line that will make it unclassified or at the 
secret level.
    Sometimes I have been only able to get it to the secret 
level. But we do have now within our states the Homeland 
Security advisors having that classification and being able to 
get that piece of intelligence.
    And then, of course, on the official-use only, we do that. 
Suicide bomber vests, again, Marines over took that one 
facility in Bagdad. Photographs I saw of the suicide leather 
vests, and these types of things, I went to DIA immediately. 
That afternoon we had photographs made, and we put out an 
advisory so that every State and local would be to see exactly 
if they pulled somebody over and opened the trunk and found 
these, they would know exactly what they're looking at.
    I want to be able to do better than that. I want 
electronically--I want a web page so that they can each day 
pull up.
    The other piece of that is the best practices. Let's learn 
how some of the great American State and locals are out there 
effecting their jobs, conducting their jobs, and paste that on 
this web page. This is how it was done in Arizona, this was how 
it was done in Nevada, and let other states learn from that.
    Mr. Shadegg. Mr. Bussell, it's your chance to say what's 
working and what could be improved.
    Colonel Bussell. Mr. Chairman and Congressman Shadegg, 
thank you very much.
    Let me start out by saying that this individual homeland 
security advisor organization, Homeland Security directors are 
different in every State. Saying that, I'm a homeland security 
advisor with one person. However, I have the same 
responsibilities maybe a larger State would have a number of 
people.
    The intelligence information that is coming down is in its 
very embryotic stages. There is no question about that. Mr. 
Secretary, it's clearly on the right steps. I can say with 
absolute confidence if we needed to know something, some 
actionable, absolutely certain intelligence, there would be no 
question in my mind that I have would it immediately, and I 
could go straight to the Governor.
    However, we do need to take some real looks at how we are 
handling this. As an example, if you send something down and it 
just comes through normal routine procedures, I may or may not 
be able to get that. Where I get most of my intelligence is 
from the folks in the back of this room every single day. They 
have a spot report that comes up from Clark County, comes up 
from the JTTF down here, from Washoe County, and it goes in.
    I'll be very candid with the group, the committee. I look 
there first now. Now, leading to that if something is really 
happening, we can talk. And I have been very critical of the 
current system. The Homeland Security advisory system, I have 
been vocal, very vocal. And as Mr. Secretary said, we are 
changing it. I have been vocal about the intelligence system. I 
hope that answers your question, sir.
    Mr. Shadegg. Yes, it does. It helps give us some 
information on how it's flowing at this earlier stage.
    Mr. Todd, let me conclude the questioning with you. I read 
your written statement and was impressed at the steps that the 
Bureau of Reclamation has taken to try to upgrade its security 
and its analysis of its exposure in the time since 9-11.
    But I did not read in there anything that suggested to me 
that you have done an analysis of kind of a worst case 
scenario. As a Westerner and native of Arizona, it randomly 
goes through my mind exactly what would happen if you 
successfully blew up Hoover Dam? Exactly what would happen if 
you successfully brought down Glen Canyon Dam?
    And I guess my question of you is in addition to assessing 
how vulnerable your facilities are, have you yet contemplated 
to perform an analysis of kind of a ``What if'' scenario if, in 
fact, your security measures fail, and one of those facilities 
was breached?
    Mr. Todd. The answer is yes, we have, Congressman. There's 
two ways that we have looked at this.
    The first way is that we have a very high expert safety dam 
program where we understand what the extent of these dams will 
do, and that consequence analysis goes right into our 
vulnerability analysis that we have completed for each of these 
dams.
    And so with the consequences on the one hand, the threats 
that we know about on the other, and then the potential in the 
middle, we look at that with the analysis of the assessment. 
From that, we make decisions about how far to go with 
instituting and implementing the security measures.
    For instance, on Glen Canyon and on Hoover, we had Defense 
Threat Reduction Agency do the assessment. We looked at that 
information and then looked at our dam safety consequences 
information and made sure those were talking to each other 
before we made the decision.
    Mr. Shadegg. And all of that information has been made 
available to the private contractors who have also looked at 
your security measures?
    Mr. Todd. I'm--.
    Mr. Shadegg. There was some reference to private 
contractors that have looked at it, and, also, I think, the 
National Laboratories at Sandia?
    Mr. Todd. The Sandia has done a couple of different things. 
The private contractors we had looked at a number of sites. The 
Defense Threat Reduction Agency looked at national critical 
structures. We had 50 other sites that prior contractors looked 
at. All of those went through a security advisory team meeting 
to really look at the consequences and how we would put in our 
security measures. On that panel sat a Sandia member. As well 
as Sandia also looked at top-down review for our overall 
umbrella security program. So there were two top-down focuses 
that were provided us.
    Mr. Shadegg. Mr. Chairman, I'm well over the five minutes. 
I appreciate your indulgence.
    Mr. Gibbons. Well, I think simply because there's just the 
two of us here that we can engage in extended question and 
answer without offending anybody else.
    Mr. Shadegg. Unfortunately, I have obligations, and so I'm 
going to have to conclude at this point. So I'll leave it to 
you.
    Mr. Gibbons. Mr. Shadegg, thank you--.
    Mr. Shadegg. So you can ask questions.
    Mr. Gibbons. Thank you for your presence and thanks for 
your time here.
    Let me continue with this. And I want to go back to Mr. 
Bussell and ask him a question about the State of Nevada. We 
have heard criticisms sometimes in the media that the Federal 
Government is not giving any Homeland Security dollars to the 
State of Nevada.
    What is your comment with regard to being on the receiving 
end of those dollars if you are not getting any and how many 
dollars or how much money has been sent to the State of Nevada 
in the course of time for homeland security problems?
    Colonel Bussell. Thank you, Mr. Chairman. That is a very 
interesting question, and sometimes one wonders where does the 
money come from. So the money I'll be talking about this 
morning it is in two breaks. It's at the fiscal year 2003 phase 
I--.
    Mr. Gibbons. That's fiscal year 1903 for these people who 
don't know what fiscal year 2003 means.
    Colonel Bussell. Yes, sir. It was $6.77 million that 
arrived in Nevada April of 2003. And for record, I will be 
putting these notes later on, Mr. Chairman. That was $6.7 
million followed in July by $17.9 million for a total for 27, 
almost--I'm sorry--25, almost $25 million. Nevada received that 
and in the process of passing it on down and basically the 80/
20, with 80 down to the first responders.
    Mr. Frank Circusa, the director of the Department of 
Emergency Management is the administrative agent and actually 
handles the operational part of disbursing the money through a 
homeland security committee that is in the process of being 
changed. It will be based on recent State legislature Assembly 
Bill 441. We're in the process of forming a homeland security 
commission, and certainly that will be a top priority.
    But back to your question, sir. We have received that 
money. It is here, and we're in the process of getting it out 
to the first responders.
    Mr. Gibbons. So just this year alone, you've gotten nearly 
$25 million into the State of Nevada for the homeland security 
efforts.
    How is that money apportioned between cities, counties, and 
states? You said it was 80/20, but 80 percent going to first 
responders.
    Colonel Bussell. Yes, sir. 80 percent going out through an 
interesting system. We use the LEPC system in the State of 
Nevada. It was in place way before I came on the station. LEPC 
is an local emergency planning committee. The group gets 
together, and then there are 17 LEPCs because there's 17 
counties in the State of Nevada. They get together and decide 
what their priorities are. The LEPC arranges their horizontal 
priorities into a vertical priority.
    They come to the Homeland Security Committee subcommittee, 
present their priorities by LEPC, by county. That is then taken 
into a vertical and presented to the Homeland Security 
Committee for final review, and it's passed out in that 
process.
    Mr. Gibbons. Mr. Todd, let me you ask when you talk about 
24/7 security at a lot of our dams and other infrastructures 
that you're responsible for, you indicated in your testimony 
that both Department of--Bureau of Reclamation and State 
security, how is that breakdown cost arrived at?
    Mr. Todd. Well, many of our dams, we have our own security 
guards contracted for, and, specifically, at Hoover we have a 
police department. We also contract for armed guards.
    We have also contracted with the local sheriff department, 
and sometimes local PDs, and certainly we contracted with the 
National Park Service for rangers to watch our dams. After 9-
11, we certainly did that for quite a while.
    Mr. Gibbons. To summarize, if you have a responsibility and 
you have contracted it out to either the State, the county, or 
locality metropolitan police, you pay them to do the security 
on your facilities?
    Mr. Todd. That's correct if we have a contract, that's 
correct.
    Mr. Gibbons. And includes the State if it were the National 
Guard?
    Mr. Todd. We don't go with the National Guard. There's ome 
authorities that prohibit Federal funding of the National Guard 
in that kind of situation. But we do certainly with the State 
patrols, and we have that on a number of sites.
    Mr. Gibbons. Okay. There is a number of other questions. 
Mr. Parrish, Secretary Parrish, there are those of us in Nevada 
who are very, very concerned with the Yucca Mountain. There is 
no doubt about it. To those of us here, it's not something that 
we look forward at all.
    And my question would be with our concerns--and I, for one, 
as a scientist, have concerns just about the structures that 
there are for the security of the material incitsu, let alone 
any kind of an act that might jeopardize that.
    My greater concern is that of the transportation of the 
material from nuclear power plants across this country to Yucca 
Mountain. I know of no studies that have been done to look at 
either the structural--infrastructure risks that are there.
    How do you assure communities, states across this country 
that that material coming through there is not going to be the 
subject of a terrorist attack with devastating consequences?
    Mr. Parrish. Sir, the Department of Energy, and I really 
can't speak for them, but I think they have a program, as you 
know, in the movement of special assets, but I think maybe a 
blueprint for what we need to build upon in this process as we 
look as the movement of these type of hazardous materials and 
waste that are moved across the United States. Energy will have 
the lead in this area, but, again, working very closely with 
the Department of Homeland Security, Transportation Security 
Administration, the Nuclear Regulatory Commission as well as 
the Department of Transportation.
    Our infrastructure protection director is heavily involved 
with these other agencies in assessing this. I think you raised 
a good point about the study that has been looked at, and I 
will go back and try to see if we have either something in 
progress or, if not, an area that we probably should move to.
    But each of agencies in varying degrees have a certain 
responsibility. And, again, as Department of Homeland Security 
is now up and running, we would certainly have a major role in 
making sure that event of the coordination is being done with 
most of these agencies when we start talking about moving any 
significant amounts of hazardous materials, such as nuclear 
waste across the country.
    So I have the specifics, and perhaps when I'm back in 
Washington, I can sit down with you and we can get a little bit 
more detail. But at this point in time, based on my phone calls 
and talking to our infrastructure protection director, they are 
engaged with the Department of Energy at this time. Under 
Secretary Laguti and I, in fact, we meet with the National 
Regulatory commission, I believe it is, next week, and one of 
these will be the topic of discussion.
    Mr. Gibbons. Let me say that your department will be well 
into which all of this intelligence information is poured. You 
will have the responsibility to ferret it out, digest, and 
analyze potential risk and threats that would be made to that. 
I see that as an overwhelming problem because of the 
vulnerability. We have already talked about porousness of our 
borders, the porousness of infrastructures, rail systems, 
highway systems, bridges, rivers for this material is--I mean 
it's incalculable how large that problem could be for you. I'm 
very concerned about it. I look forward to talking to you 
further to get your information.
    Mr. Todd, let me ask you one final question as well with 
regards to water supplies, Hoover--Lake Mead provides an 
enormous quantity of water, a reservoir, but it's always a 
reservoir from which communities are served water, especially 
the Las Vegas community and Clark County, and community 
downstream from Lake Mead.
    What steps have you taken or the Bureau of Reclamation 
taken to assure that these critical water sources are safe for 
our communities with regard to some type of chemical or 
biological agent that might be used to contaminate those 
waters?
    Mr. Todd. Well, early on, we put out some memos and 
guidance to field staff on being watchful and understanding 
what the chemical biological kind of attacks may be. We have 
more to do in that area, but certainly we have the guidance 
there for the field people to really be aware of what may 
happen.
    Mr. Gibbons. Are you coordinating those investigations with 
other agencies to share that information, say, for example, 
with Homeland Security who might know of information that could 
relate to that?
    Mr. Todd. Yes, we are. We have a lot of coordination with 
Homeland Security at the Washington level and then also our 
local offices are coordinating with the local first responders 
and so forth.
    We have a program where we do environmental--not 
environmental--emergency preparedness work. We do table top 
function exercises and so forth. Those exercises many times 
include that kind of work where we may have a truck affecting 
the carrying of the chemical that is affecting the reservoir, 
and so how would we deal with that on an emergency basis.
    So those exercises are ongoing continually, and we work 
right along with first responders on those kinds of things.
    Mr. Gibbons. Knowing the size of Las Vegas, I cannot 
imagine being able to just turn the tap off if there were a 
problem with the water supply out here at Lake Mead. And it's 
something I'm sure that the community here is very concerned 
about, and I would look forward to spending time with you to 
discuss the issue further to make sure that we have reached a 
satisfactory answer to the question about the security of that 
water system for Las Vegas.
    Mr. Todd. I'd be happy to.
    Mr. Gibbons. Gentlemen, we have to go to the second panel 
here. We have taken a great deal of your time, and the 
committee is grateful for your presence and your testimony. We 
would like to excuse the panel with thanks from me personally 
and from the committee.
    We will take a 5-minute break, and when we come back, we 
will call up our second panel for the committee.
    Gentlemen, thank you very much. We'll take a 5-minute 
break.
    [Brief recess.]
    Mr. Gibbons. The Subcommittee on Intelligence and 
Counterterrorism will come back to order.
    At this point in time, we would like to call our second 
panel, and that will include Mr. David Shepherd, head of 
security at the Venetian Resort; Mr. Randy Walker, aviation 
director of Clark County Department of Aviation; Dr. Dale 
Carrison--am I pronouncing your name correctly, Doctor?
    Dr. Carrison. Yes.
    Mr. Gibbons. Emergency Department Medical Director, UMC 
Trauma Center; and Deputy Chief Bill Conger, Las Vegas 
Metropolitan Police Department.
    Gentlemen, we want to welcome you here. Just as you heard 
from the previous witnesses, we try to limit our opening 
remarks to 5 minutes, but we will include your complete and 
full and written testimony for the record.
    And simply because I'm the only person here doesn't mean 
that it isn't important what you say because all of these 
hearings are recorded. We have a process whereby the record 
will reflect what you say and it will be reviewed after this 
subcommittee returns to Washington, D.C.
    With that in mind, I'll just proceed from left to right, my 
left, my right, or your left, or your right to your left, 
whichever, but I'll start with Mr. Shepherd, head of security 
for the Venetian Resort, for your opening remarks.
    Mr. Gibbons. Mr. Shepherd, welcome. We're happy to have you 
before the committee.

  STATEMENT OF MR. DAVID SHEPHERD, HEAD OF SECURITY, VENTIAN 
                             RESORT

    Mr. Shepherd. Good morning.
    Mr. Gibbons. And you have to push the red button so that 
you can be heard.
    Mr. Shepherd. Good morning. I would like to thank 
Congressman Jim Gibbons for the opportunity to speak before 
this prestigious panel assembled today. It is truly an honor 
and pleasure to be here.
    I am a blend of both the private and public sectors. I 
retired from the FBI after 24 years of service in 1999 and 
began my career in the private sector immediately thereafter. 
As a supervisory special agent with the FBI, I participated in 
counterterrorism matters with SWAT, Team Leader, and as the 
Coordinator for this program.
    For nearly 16 years, I dealt with terrorism matters at the 
Nevada Test Site, Tonopah Missile Range and Hoover Dam. I 
trained with Delta Force, Army Rangers, Special Forces and Navy 
Seals, and, of course, the security forces from each of these 
special sites. I further participated in intelligence 
gathering, with the Office of Threat Assessment, U.S. 
Department of Energy and participated in numerous nuclear 
exercises through the United States.
    In the private sector, I am the Executive Director of 
Security for the Venetian Resort Hotel Casino in Las Vegas. The 
Venetian is the third largest hotel in the world with over 7 
million square feet of space, 4,049 suites, and has an average 
daily visitor rate of 80,000 guests per day, which is four 
times the average American city.
    I have attempted to extract from both sectors the best of 
each world in the protection of the property. The tourist/
entertainment/gaming industry presents its own challenges, 
because if I create an airport style of visible protection and 
security precautions, the guests will go across the street to 
another property. If the city receives too many threats, the 
guests will stay at home.
    Security in the customer service industry is a delicate 
balance and froth with challenges at every turn. Most people 
sitting here today have no idea what it takes to operate a 
security department in today's marketplace. I would like to 
shed some light on our challenges and outline some of the great 
lengths security must envision to ensure the safety of our 
guests and property.
    As the security director, I must be concerned with civil 
liability issues, criminal activities, and terrorism, plus the 
threat of SARS or other diseases that our world travelers might 
bring to the property.
    During the height of the worldwide SARS scare, the Venetian 
hosted the JCK Jewelry Show, a show where over 35,000 
conventioneers participated, over 1,500 exhibit booths 
displaying jewelry products throughout the property. Included 
in the booths, 1,500 booths, were 110 booths from China and 40 
booths from Canada.
    The Venetian maintained contact with the CDC and Clark 
County Health District concerning possible courses of action to 
take in the event that one of our conventioneers displayed 
signs of SARS. Fortunately, no cases were reported, but we 
planned for the worst, just as we are required to do for each 
key security issue.
    The security directors of today face greater challenges 
than ever before, and we must be forward-thinking each and 
every day, because our greatest concern is the safety of our 
guests, first and foremost.
    Today's directors cannot rely on successes of the past or 
the tools and equipment of the past or the training used in the 
past. Technical advances coupled with a trained, alert staff 
can speak volumes, when the lives of thousands rest in their 
hands.
    If you haven't prepared or anticipated each threat, the 
fear of failure and disaster are the end results. The 
repercussions of a failed security defense can have lingering 
effects for years to come. We do plan and must plan for every 
contingency to ensure the safety of our guests and team 
members.
    The security directors of today must anticipate the source 
of each threat or situation and then establish policies and 
procedures to meet the threat head on under the principles of 
``Total Prevention'' and/or ``Damage Limitation.'' In ``Total 
Prevention,'' the department must stop every conceivable plan 
of attack. Not one attack or plan can be successful. Each 
attempt must be crushed without the slightest bit of damage or 
loss of life.
    In ``Damage Limitation,'' the department must limit the 
loss of life and the spread of further damage. Each minute that 
we fail to act could have deadly effects on those caught in 
harm's way.
    Many of the thousands of survivors in the World Trade 
Center and the Pentagon owe their lives to the foresight and 
training of those dedicated security and safety professionals 
who anticipated the threat. The casino security directors in 
Las Vegas have planned and are working together to anticipate 
each threat.
    In Vietnam, we did what is called, ``looking at both sides 
of the wire.'' We look at the property from the angle of 
protection and from the angle of penetration. What holes do 
they see in our defenses? How would they approach the property? 
Can we turn a weak point into a strength?
    A good friend of mine once said, ``Being forewarned is 
being forearmed.'' If we know what they can do and have done, 
then we can plan accordingly.
    A security plan begins with research. Each day I review 
intelligence reports from around the world, but not just from 
one source. Several sources, documents and agencies are 
contacted before I start my day. I want to know what happened 
in the world yesterday and today. I want to know what the 
latest trick or tactic they tried. I want to listen to minutest 
shred of data or perceived concept, then say, ``What if they 
tried the same thing here?''
    Under the same concept, at the Nevada Test Site, we did 
what is called, ``What ifs.'' What if the enemy did this or did 
that? Are we prepared to defeat, defend, and neutralize the 
aggressors? That is how we plan. Not for just one key event, 
but multi-events, threats and attacks.
    As an example of our foresight, the Venetian has analyzed 
the threats and implemented 84 changes to the property to 
ensure the safety of our guests and team members, just during 
the first year following September 11th. That number has now 
toppled over 100 improvements or modifications to our security 
measures.
    Recently in Indonesia, a taxi, dropping off a guest in the 
porte chere of a hotel, exploded, killing 13 people and 
wounding over 100. We modified our procedures in accepting 
taxis on property. We innovate, adapt and overcome any threat 
that is presented to us.
    In SWAT we stated, ``We are only as strong as our weakest 
link.'' How do you ensure the preventive measures and concepts 
are firmly entrenched into your property on every level? 
Training. Training for what? Training for everything.
    In security we don't need to know the political motivation 
or the reason why the person is doing such a horrific act. We 
need to know the physical actions and their tactics. In 
football, no team goes straight to the Super Bowl without first 
practicing, creating defensive and offensive plays, and 
scouting out the other team. In security we must do the same. 
We establish plans, obtain intelligence, implement the 
preventive measures and train.
    After September 11th, I received more calls than Allied Van 
Lines has movers. Every suspicious person or situation was 
reported. People broke the mold. They didn't say, ``That's not 
my job,'' or ``I don't want to get involved.'' They became part 
of the security department. The size of my department isn't the 
number of officers I have on my staff, but it should be 
everyone that walks in that property.
    We cannot afford to become complacent as the al-Qaeda 
training manual has indicated. We continuously train our front 
line staff to be vigilant and recognize suspicious persons or 
situations.
    Ask your staff this one question, ``Do you feel safe?'' If 
they don't feel safe, then the directive of each security 
director and corporate officer is to reverse this sense of 
insecurity without question.
    In conclusion, Mel Gibson played Benjamin Martin in the 
movie, ``The Patriot.'' He said, ``This war will not be fought, 
not on the frontier, not on some distant battlefield, but 
amongst us, among our homes. Our children will learn of it with 
their own eyes.''
    Isn't that what happened on September 11th?
    In the field of casino security, the casino chiefs' 
association has brought together security chiefs to develop 
training programs, opened lines of communication between 
multiple agencies and raised the level of security in Las 
Vegas. We cannot afford to become complacent as the al-Qaeda 
training manual has indicated just because nothing has happened 
in the United States since September 11th and the terrorist 
acts have occurred in foreign lands. We are working together 
daily to ensure the safety of our guests and employees, but not 
on just one property. All casinos are part of the protection 
equation. They will never take away our freedom or our way of 
life.
    Thank you.
    [The statement of Mr. Shepherd follows:]

                PREPARED STATEMENT OF MR. DAVID SHEPHERD

Good morning. I would like,thank Congressman Jim Gibbons for the 
opportunity to speak before this prestigious panel assembled today. It 
is truly an honor and privilege 'to be here today.

I am a blend of both the private and public sectors. I retired from the 
FBI after twenty-four years of serve in 1999 and began my career in the 
private sector immediately thereafter. As a supervisory special agent 
with the Federal Bureau of Investigation I participated in counter 
terrorism matters as the SWAT Team Leader and as the Coordinator for 
this program. For nearly sixteen years I dealt with terrorism matters 
at the Nevada Test Site, Tonopah Missile Range and Hoover Dam. I 
training with Delta Force, Army Range, Special Forces and Navy Seals, 
and of course the security forces from each of these special sites. I 
further participated in intelligence gathering, with the Office of 
Threat Assessment, US Department of Energy and participated in numerous 
nuclear exercises throughout the United States.

In the private sector, I am the Executive Director of Security for the 
Venetian Resort Hotel Casino, Las Vegas, Nevada. The Venetian is the 
third largest hotel in the world with over 7 million square feet of 
space, 4049 suites, and has an average daily visitor rate of 80,000 
guests per day, which is four times the average American city.

I have attempted to extract from both sectors the best of each world in 
the protection of the property. The tourist/entertainment/gaming 
industry presents its own challenges, because if I create an airport 
style of visible protection and security precautions, the guests will 
go across the street to another property. If the city receives too many 
threats, the guests will stay at home. Security in the customer service 
industry is a delicate balance and froth with challenges at every turn. 
Most people sitting here today have no idea what it takes to operate a 
security department in today's marketplace. I would like to shed some 
light on our challenges and outline some of the great lengths security 
must envision to ensure the safety of our guests and property.

As the security director I must be concerned with civil liability 
issues, criminal activities and terrorism, plus the threat of SARS or 
other diseases that our world travelers might bring to the property. 
During the height of the worldwide SARS scare, the Venetian hosed the 
JCK Jewelry Show. A show in which over 35,000 conventioneers 
participated. Over 1500 exhibit booths displayed jewelry products 
throughout the property. Included in the exhibit booth total were 110 
booths from China and 40 booths from Canada. The Venetian maintained 
contact with the Center for Disease Control and the Clark County Health 
District concerning the possible courses of action to take in the event 
that one of our conventioneers displayed signs of the SARS virus. 
Fortunately, no cases were reported, but we planned for the worst, just 
as we are required to do for each key security issue.

The security directors of today face greater challenges than ever 
before and we must be forward thinking each and every day, because our 
greatest concern is the safety of our guests, first and foremost. 
Today's directors cannot rely on the successes of the past or the tools 
and equipment of the past or the training used in the past. Technical 
advances coupled with a trained alert staff can speak volumes, when the 
lives of thousands rest in their hands. If you haven't prepared or 
anticipated each threat, the fear of failure and disaster are the end 
results. The repercussions of a failed security defense can have 
lingering effects for years to come. We do plan and must plan for every 
contingency to ensure the safety of our guests and team members.

The security directors of today must anticipate the source of each 
threat or situation and then establish policies and procedures to meet 
the threat head on under the principles of ``Total Prevention'' and/or 
``Damage Limitation''. In ``Total Prevention'' the department must stop 
every conceivable plan of attack. Not one attack or plan can be 
successful. Each attempt must be crushed without the slightest bit of 
damage or loss of life. In ``Damage Limitation'' the department must 
limit the loss of life and the spread of further damage. Each minute 
that we fail to act could have deadly effects on those caught in harms 
way. Many of the thousands of survivors in both the World Trade Center 
and the Pentagon owe their lives to the foresight and training of those 
dedicated security and safety professionals who anticipated the threat. 
The casino security directors in Las Vegas have planned and are working 
together to anticipate each threat.

In Vietnam we did what is called, ``looking at both sides of the 
wire''. We look at the property from the angle of protection and from 
the angles of penetration. What holes do they see in our defenses'' How 
would they approach the property? Can we turn a weak point into a 
strength? A good friend of mine once said, ``Being forewarned is being 
forearmed''. If we know what they can do and have done, then we can 
plan accordingly. A security plan begins with research. Each day I will 
review intelligence reports from around the world, but not just from 
one source. Several sources, documents and agencies are contacted 
before I start my day. I want to know what happened in the world 
yesterday and today. I want to know what the latest trick or tactic 
they tried. I want to listen to the minutest shred of data or perceived 
concept, then say, ``What if they tried the same thing here''. Under 
the same concept, at the Nevada Test Site we did what is called, ``What 
iPs''. What if the enemy did this or did that. Are we prepared to 
defeat, defend and neutralize the aggressors? That is how we plan. Not 
for just one key event, but multi-events, threats and attacks.

As an example of our foresight, the Venetian has analyzed the threats 
and implemented eighty-four changes to the property to ensure the 
safety of our guests and team members, just during the first year 
following September 11th. That number has now toppled over one-hundred 
improvements or modifications to our security measures. Recently in 
Indonesia a taxi dropping off a guest in the porte cochere of a hotel, 
exploded killing 13 people and wounding over 100. We modified our 
procedures in accepting taxis on property. We will innovate, adapt and 
overcome any threat that is presented to us.

In SWAT we stated, ``You are only as strong as your weakest link''. How 
do you ensure the preventive measures and concepts are firmly 
entrenched into your property, on every level? Training. Training for 
what? Training for everything. In security we don't need to know the 
political motivation or the reason why the person is doing such a 
horrific act, we need to know the physical actions and their tactics. 
In football no team goes straight to the Super Bowl without first 
practicing, creating defensive and offensive plays, and scouting out 
the other team. In security we must do the same. We establish plans, 
obtain intelligence, implement the preventive measures and train.

After September 11th I received more calls than Allied Van Lines has 
movers. Every suspicious person or situation was reported. People broke 
the mold. They didn't say, ``That's not my job'' or ``I don't want to 
get involved''. They became part of the security department. The size 
of my department isn't the number of officers I have on my staff, but 
it should be everyone that enters the property. We cannot afford to 
become complacent as the Al Qaeda training manual has indicated. We 
continuously train our front line staff to be vigilant and recognize 
suspicious persons or situations. Ask your staff this one question, 
``Do you feel safe?'' If they don't feel safe, then the directive of 
each security director and corporate officer is to reverse this sense 
of insecurity without question.

In conclusion, Mel Gibson played Benjamin Martin in the movie, ``The 
Patriot'', he stated, ``This war will not be fought, not on the 
frontier, not on some distant battlefield, but amongst us. Among our 
homes. Our children will learn of it with their own eyes''. Isn't that 
what happened on September 11th? In field of casino security the casino 
chief's association has brought together the security chief's to 
develop training programs, opened lines of communication between 
multiple agencies and raised the level of security in Las V egas. We 
cannot afford to become complacent as the Al Qaeda training manual has 
indicated just because nothing has happened on United States soil since 
September 11th and the terrorist acts have occurred in foreign lands. 
We are working together daily to ensure the safety of our guests and 
employees, but not on just one property. All casino properties are part 
of the protection equation. They will never take away our freedom or 
our way of life.

    Mr. Gibbons. Thank you very much, Mr. Shepherd. Your 
testimony was excellent as we anticipated. And it reminded me 
of something that I wanted to do at the beginning of this 
second panel, if I may take a moment of just personal 
privilege.
    I want to recognize and thank all the members out here in 
the audience who belong to our first responders, whether 
they're fire, police, Metro, Highway Patrol, you did a 
wonderful job just 48 hours ago responding to the floods that 
were here in Las Vegas. The footage that we watched on the 
television were just heroic of your efforts.
    So on behalf of, not just Congress, but myself and I think 
a lot of Nevadans, we all want to say thank you to you 
personally for the efforts that you've done.
    This is part of our Homeland Security. You are a big part 
of it, and we want you to know that we appreciate your efforts.
    Mr. Gibbons. With that being said, let me now turn to Mr. 
Randy Walker for your opening statements. Mr. Walker, welcome, 
and the floor is yours.

     STATEMENT OF MR. RANDY WALKER, DIRECTOR, CLARK COUNTY 
                     DEPARTMENT OF AVIATION

    Mr. Walker. Thank you, Mr. Chairman. On behalf of Clark 
County and the Clark County Department of Aviation, I thank you 
for this invitation to address the security needs of Las Vegas 
McCarran International Airport.
    On September 11th, 2001, almost two years ago, the aviation 
industry suffered a devastating blow, as we all know. As 
airplanes were forced down onto airfields around the Nation and 
all air travel was suspended for days, the problems facing our 
industry changed in an instant.
    You may recall that prior to 9-11, we were faced with 
unprecedented passenger traffic, which created significant 
strains on the Nation's aviation infrastructure. Before 9-11, 
our focus was on more runways, airspace efficiency enhancements 
and a passenger's bill of rights.
    Almost overnight, our concerns shifted to the survival of 
the Nation's airlines and the major security enhancements 
necessary to assure the traveling public it was safe to fly 
again. We applaud Congress for responding in record time by 
enacting Federal legislation which imposed sweeping security 
obligations and requirements on all airports and airlines.
    A new Federal agency, the Transportation Security 
Administration (or TSA), was created, and a new Federal 
security screening workforce began to assume the security 
related responsibilities previously borne by the airlines.
    The Aviation and Transportation Security Act required the 
TSA to install Explosive Detection Systems (EDS) at 429 
commercial airports to screen all checked baggage by December 
31, 2002. In addition, TSA and its industry partners were given 
deadlines for enhanced screening of passengers, checked 
luggage, and cargo shipments.
    In retrospect, we all knew it would be difficult, if not 
impossible, for TSA to meet this deadline at 100 percent of the 
Nation's commercial airports. According to the Department of 
Transportation Inspector General, as of July 6, 2002, a little 
over a year ago, six months before the screening deadline, 
there were only 215 EDS machines and 273 Explosive Trace 
Detection machines in use at 59 airports.
    Consequently, TSA would have had to purchase and install 
1,000 EDS machines and 5,600 EDT machines at airports in just 
five months, approximately one machine every 37 minutes between 
July and December 31st to fulfill the 100 percent explosive 
detection mandate.
    Even if manufacturers could produce that many machines, TSA 
would have been required to hire and train enough baggage 
screeners to operate the EDS and ETD machines. TSA would have 
needed to recruit, hire, and train approximately 21,600 
screeners to operate these machines.
    Again, according to the DOT Inspector General, by July of 
last year, the TSA had hired and trained only 215 baggage 
screeners. Consequently, the agency was given the impossible 
task to recruit, hire and properly train approximately 21,400 
screeners over five months, approximately one screener every 
four minutes.
    With encouragement from the airports, including McCarran 
International Airport, Congress responded by providing the TSA 
needed flexibility to meet the statutory deadlines imposed, 
particularly at unique airports like McCarran.
    These requirements have posed a significant burden on 
airports everywhere; however, I dare say, with the exception of 
New York and Washington, D.C., no one has felt the adverse 
impact more than we have Las Vegas and at McCarran.
    From a high of 3.4 million passengers in the month of 
August 2001, passenger traffic at McCarran fell 37 percent 
almost overnight. Our hotel occupancy plummeted during the fall 
of 2002 as cancellations reflected the somber and apprehensive 
mood of the Nation. This, combined with the fear of flying, 
kept many of our tourists away from Las Vegas. Thousands of 
hotel workers lost jobs. At McCarran, most of the planned 
capacity expansion projects were shelved and our focus shifted 
immediately to meeting the enhanced security requirements 
imposed by the Federal law.
    Interesting enough, air traffic to Las Vegas was really the 
first to begin to recover in the Nation. By Christmas of 2001, 
we began to see a return of some of the lost passenger volume. 
While our numbers during 2002 failed to match our record highs 
of the previous year, they grew gradually from the post 9-11 
traffic levels, while traffic at most other airports continued 
to decline or at best remained flat.
    However, with the return of our passengers came a host of 
new challenges. Long lines and extensive delays sprung up at 
the security points in the airport as a result of the required 
enhanced passenger processing and security screening. This 
problem was exacerbated by the layoffs of airline employees by 
many of the carriers serving McCarran as they struggled to 
survive financially.
    I am sure I do not need to remind you, Mr. Chairman, of the 
endless lines that stretched out the doors and onto McCarran's 
roadways, because I know you experienced them personally, and I 
know you stood in the lines as well, or the hour it took to 
pass through the security checkpoints.
    Immediately this highlighted another security threat that I 
don't think people have thought about. Such long lines give 
terrorists an alternative and attractive target, thereby 
creating an unacceptable increased security risk at airports.
    In addition to the security risks, we feared that tourists 
whose travel is discretionary would choose to avoid screening 
delays and business travelers might not choose to endure the 
hassle of traveling to Las Vegas if the delay problems were not 
rapidly solved.
    McCarran is unique among the Nation's airports when you 
consider that we handle approximately 36 million passengers who 
use our airport each year; 82 percent of McCarran's passengers 
are tourists or conventioneers who are vital to the continued 
economic well being of Southern Nevada.
    Las Vegas is the second leading airport in the Nation for 
origination and destination passengers. This means that we 
handle more passengers through the security screening than any 
other airport in the world except for Los Angeles. Las Vegas 
handles an average of 50,000 departing passengers per day. 
These passengers bring with them approximately 60,000 bags per 
day that need to be checked, which means we must screen more 
luggage than most of the Nation's larger airports.
    On our weekly peak days of Thursday or Sunday, when 
tourists coming and from leaving Las Vegas, we screen over 
65,000 passengers.
    Like most airports, Las Vegas McCarran was not designed 
with adequate space in the ticket lobby or bag makeup rooms for 
the installation of large numbers of screening machines, which 
are now required by the TSA. Shoehorning such equipment into 
the existing space just to meet an arbitrary deadline would 
have led to inefficiencies, delays, and economic burdens and 
even security-related problems, with masses of people cramped 
into a small area.
    McCarran's analysis has shown that under one development 
scenario, proposed by the TSA early in 2002, passengers 
checking baggage would have waited up to four hours in line to 
check their bags. Clearly unacceptable from a security and from 
customer service standpoint.
    Giving TSA more flexibility to work with a few selected 
airports like McCarran on how to efficiently install in-line 
ESD and ETD luggage screening machines helped prevent further 
economic disruption to the airline industry and tourism 
following 9-11 and also allowed us to meet the security goals 
that Congress had established for airports.
    McCarran has moved aggressively and was one of the first 
airports in the Nation to be given approval to commence 
construction of the In-line baggage screening system at our 
main terminal. This in-line system will change the passenger 
ticket counter experience to almost a pre-9-11 experience for 
the customer.
    Luggage checked at the ticket counter will be directed to 
the TSA through a complex system of conveyor belts and 
screening machines. TSA employees will screen each bag for 
dangerous materials before the bag is returned to an airline 
for processing. This system will cost approximately $125 
million dollars to install and is scheduled to be operational 
by December 31, 2004. In fact, the first two notes of this six-
note system are under construction as we speak.
    Recently, we faced an additional challenge when the TSA 
announced plans to reduce the number of passenger screeners 
assigned to our airport. Upon our investigation of the 
methodology used by TSA to make personnel and equipment 
allocations among the Nation's airports, we found several major 
flaws:
    TSA's staffing formula was not based on the number of 
passengers that require security screening, but rather upon the 
number of checkpoint screening lanes that an airport may have.
    TSA screeners were assigned to match the number of 
screening lanes at an airport regardless of the need. If an 
airport had more physical space for lanes, they would get more 
staff regardless of the number of passengers using those lanes.
    TSA's own formula underestimated staffing needs at 
McCarran. Their initial proposal was for 528 screeners, and our 
calculations showed that the average passenger wait time at the 
screening checkpoint would have been 41 minutes under that 
plan, well in excess of the 10-minute commitment provided by 
the Federal Government initially.
    Our analysis shows by adding one staff member per shift per 
checkpoint lane, we could reduce the average passenger wait to 
13 minutes. And this would bring the total staffing 
requirements from TSA to 630.
    We are moving aggressively at McCarran to add more security 
checkpoint lanes. On June 6, 2002, we added three new screening 
lanes to serve Concourses C and D. We are about to begin 
construction on a project to extend the screening areas over 
baggage claim so that we can install six more screening lanes. 
However, this will require an additional TSA staffing to fully 
man and operate them.
    We want to thank Congress for recognizing in the recently 
approved FAA Reauthorization Conference report that allocation 
of TSA personnel and equipment based exclusively upon lanes or 
hubbing passengers was not the right approach. We gratefully 
thank our congressional delegation for their support in this 
effort. We now believe that the TSA has a greater appreciation 
of the security problems, especially at McCarran and is moving 
to address them.
    Our local Federal Security Director is an essential member 
of our McCarran team and has proven to be an excellent partner 
in addressing these problems.
    We still have a long way to go, however. Last month, for 
example, we enjoyed the fifth busiest month in the history of 
the airport. In July, just this last month, we processed more 
passengers than we did July 2001.
    We have resumed the expansion of the ``D'' satellite 
concourse. We anticipate that as soon as three years form now, 
depending on traffic flow, we could begin construction of 
another Unit Terminal along Russell Road in front of ``D'' 
gates. This will necessitate new in-line baggage screening 
equipment and additional screening checkpoints for passengers 
who will use that terminal.
    Thank you, Mr. Chairman, for allowing me to review the 
significant security-related challenges we faced at McCarran. 
Our success is of vital importance for the continued recovery 
and expansion of Las Vegas' economy, and I'm sure you know that 
very well, and we appreciate your assistance. I express our 
appreciation for your previous help and previous help of our 
congressional delegation on these issues. I am thanking you in 
advance for the help I know that you will give us in the 
future.
    Mr. Gibbons. Thank you very much, Mr. Walker. As a frequent 
flyer into and out of Las Vegas, I can attest to everything you 
have said in your comments. I can understand and appreciate 
your efforts to make it better.
    [The statement of Mr. Walker follows:]

                PREPARED STATEMENT OF MR. RANDALL WALKER

    Chairman Gibbons and Members of the Subcommittee, I want to thank 
you for this invitation to address the security needs of Las Vegas 
McCarran International Airport.

    On September 11th, 2001 almost two years ago, the aviation industry 
suffered a devastating blow. As airplanes were forced down onto 
airfields around the nation and all air travel was suspended for days, 
the problems facing our industry changed in an instant. You may recall 
that prior to 9-11, we were faced with unprecedented passenger traffic, 
which created significant strains on the nation's aviation 
infrastructure. Before 9-11, our focus was on more runways, airspace 
efficiency enhancements and a passenger's bill of rights.

    Almost overnight, our concerns shifted to the survival of the 
nation's airlines and the major security enhancements necessary to 
assure the traveling public it was safe to fly again. We applaud 
Congress for responding in record time by enacting federal legislation 
which imposed sweeping security obligations and requirements on all 
airports and airlines. A new federal agency, the Transportation 
Security Administration (or TSA), was created and a new federal 
security screening workforce began to assume the security related 
responsibilities previously borne by the airlines. The Aviation and 
Transportation Security Act required the TSA to install Explosive 
Detection Systems (EDS) at 429 commercial airports to screen all 
checked baggage by December 31, 2002. In addition, TSA and its industry 
partners were given deadlines for enhanced screening of passengers, 
checked luggage and cargo shipments.

    In retrospect, we all knew it would be difficult--if not 
impossible--for TSA to meet this deadline at 100 percent of the 
nation's commercial airports. According to the Department of 
Transportation (DOT) Inspector General as of July 6-six months before 
the screening deadline--there were only 215 EDS machines and 273 
Explosive Trace Detection (ETD) machines in use at 59 airports. 
Consequently, TSA would have had to purchase and install approximately 
1,000 EDS machines and 5,600 EDT machines at airports in just five 
months--approximately one machine every 37 minutes between July and 
December 31 to fulfill the 100% explosive detection mandate. Even if 
manufacturers could produce that many machines, TSA would have been 
required to hire and train enough baggage screeners to operate the EDS 
and EID machines. TSA would have needed to recruit, hire and train 
approximately 21,600 screeners to operate these machines. Again, 
according to the DOT Inspector General, by July of last year the TSA 
had hired and trained only 215 baggage screeners. Consequently, the 
agency was given the impossible task to recruit, hire and properly 
train approximately 21,400 screeners over five months--approximately 
one screener every 4 minutes.

    With encouragement from the airports, including McCarran, Congress 
responded by providing the TSA needed flexibility to meet the statutory 
deadlines imposed--particularly at unique airports like McCarran.

    These requirements have posed a significant burden on airports 
everywhere; however, I dare say no city with the exception of New York 
and Washington D.C. felt the adverse impacts of9-11 more than Las 
Vegas. From a high of 3.4 million passengers in of the month of August 
2001, passenger traffic at McCarran fell 37% percent almost overnight. 
Our hotel occupancy plummeted during the fall of 2002 as cancellations 
reflected the somber and apprehensive mood of the nation. This, 
combined with the fear of flying, kept many of our tourists away from 
Las Vegas. Thousands of hotel workers lost jobs. At McCarran, most of 
the planned capacity expansion projects where shelved and our focus 
shifted immediately to meeting the enhanced security requirements 
imposed by federal law.

    Interestingly enough, air traffic to Las Vegas was really the first 
to begin to recover. By Christmas of 2001, we began to see a return of 
some of the lost passenger volume. While our numbers during 2002 failed 
to match the record highs of the previous year, they grew gradually 
from the post 9-11 traffic levels, while traffic at most other airports 
continued to decline or at best remained flat.

    However, with the return of our passengers came a host of new 
challenges. Long lines and extensive delays sprung up at the security 
points in the airport as a result of the required enhanced passenger 
processing and security screening. This problem was exacerbated by the 
layoffs of airline employees by many of the carriers serving McCarran 
as they struggled to survive financially. I am sure I do not need to 
remind you, Mr. Chairman, of the endless lines that stretched out the 
doors and onto McCarran's roadways, or the hours it took to pass 
through the security checkpoints. Immediately this highlighted another 
threat. Such long lines give terrorists an alternative and attractive 
target, thereby creating an unacceptable increased security risk. In 
addition, we feared that tourists whose travel is discretionary would 
choose to avoid screening delays and business travelers might not 
choose to endure the hassle of traveling to Las Vegas if the delay 
problems were not rapidly solved.

    McCarran is unique among the nation's airports when you consider 
that:
        <bullet> There are more than 36 million passengers who use our 
        airport each year.
        <bullet> 82% of McCarran' s passengers are tourists or 
        conventioneers who are vital to the continued economic well 
        being of Southern Nevada.
        <bullet> Las Vegas is the second leading airport in the nation 
        for origination and destination passengers. This means that we 
        handle more passengers through security screening than any 
        other airport except for LAX.
        <bullet> Las Vegas handles an average of 50,000 departing 
        passengers per day. These passengers bring approximately 60,000 
        bags per day, which means we must screen more luggage than most 
        of the nation's larger airports.
        <bullet> On our weekly peak days of Thursday or Sunday (when 
        tourists come in and out for the weekend) we screen over 65,000 
        passengers.
        <bullet> Like most airports, Las Vegas McCarran was not 
        designed with adequate space in the ticket lobby or bag makeup 
        rooms for the installation of large numbers of the screening 
        machines, which are now required by the TSA.
        <bullet> Shoehorning such equipment into the existing space 
        just to meet an arbitrary deadline would have led to 
        inefficiencies, delays, and economic burdens on our air 
        carriers and potentially to our tourism based economy.
        <bullet> McCarran's analysis has shown that under one 
        deployment scenario, proposed by the TSA early in 2002, 
        passengers checking baggage could be waiting in line for four 
        hours.
    Giving TSA more flexibility to work with a few selected airports 
like McCarran on how to efficiently install inline EDS and EID luggage 
screening machines helped prevent further economic disruption to the 
airline industry and tourism following 9/11.
    McCarran has moved aggressively and was one of the first airports 
in the nation to be given approval to commence construction of the In 
Line baggage screening system at our main terminal. This in-line system 
will change the passenger ticket counter experience to almost a pre-9-
11 experience. Luggage checked at the ticket counter will be directed 
to the TSA through a complex system of conveyor belts and screening 
machines. TSA employees will screen each bag for dangerous materials 
before the bag is returned to an airline. This system will cost 
approximately $125 million dollars to install and is scheduled to be 
operational by December 31, 2004.
    Recently, we faced an additional challenge when the TSA announced 
plans to reduce the number of passenger screeners assigned to our 
airport. Upon our investigation of the methodology used by TSA to make 
personnel and equipment allocations among the nations airports, we 
found several major flaws:
                <bullet> TSA's staffing formula was not based upon the 
                number of passengers that require security screening 
                but rather upon the number of checkpoint screening 
                lanes an airport may have.
                <bullet> TSA screeners were assigned to match the 
                number of screening lanes at an airport regardless of 
                the need. If an airport had more physical space for 
                lanes, they would get more staff regardless of the 
                number of passengers using those lanes.
                <bullet> TSA's own formula underestimated staffing 
                needs at McCarran (the actual calculation was not 
                correct!)
                <bullet> With TSA's initial proposal for 528 screeners, 
                the average passeneer wait time would have been 41-
                minutes at McCarran. well in excess of the 10-minute 
                commitment made by the federal government.
    Our analysis shows by adding one staff member per shift per 
checkpoint lane we could reduce the average passenger wait time to 13 
minutes. By adding one more person to each lane, total TSA staffing 
requirement would be 630 based on existing lanes.
    We are moving aggressively at McCarran to add more screening 
checkpoints lanes. On June 6, 2002 we added three (3) new screening 
lanes serving Concourses C and D. We are about to begin construction on 
a project to extend the screening areas over baggage claim so we can 
install 6 more screening lanes. However, this will require an 
additional TSA staffing to fully man and operate them.
    We want to thank Congress for recognizing in the recently approved 
FAA Reauthorization Conference report that allocation of TSA personnel 
and equipment based exclusively upon lanes or hubbing passengers was 
the not the right approach. We now believe that the TSA has a greater 
appreciation of the security problems, especially at McCarran and is 
moving to address them. Our local Federal Security Director is a member 
of our McCarran team and has proven to be an excellent partner in 
addressing these problems.
    We still have a long way to go however. Last month, for example, we 
enjoyed the fifth busiest month in our history. We have resumed the 
expansion of the ``D'' satellite concourse and we anticipate that as 
soon as 3 years from now we could begin construction of another Unit 
Terminal on Russell Road in front the ``D'' gates. This will 
necessitate new inline baggage screening equipment and additional 
screening checkpoints for passengers who will use that terminal.
    Thank you for allowing me to review the significant security 
related challenges we have faced and are facing at McCarran 
International Airport. Our success is of vital importance to the 
continued recovery and expansion of Las Vegas' tourist dependent 
economy while maintaining a high level of safety. Along with providing 
the highest level of safety and security, we strive to maintain an 
exceptional customer service environment. We certainly are appreciative 
of the recent revision to the allocation of Homeland Security funds 
that now includes tourist numbers in the formula which was accomplished 
by our Nevada delegation. We recognize our vital role as the gateway to 
the most exciting city in the world. We are truly the first impression 
and last look of every air passenger to Las Vegas.
    I want to take this opportunity to express my appreciation for 
helping to ensure that every air passenger to Las Vegas enjoys a safe, 
secure and hassle- free experience.

    Mr. Gibbons. We turn now to Dr. Carrison. Welcome, the 
floor is yours. We look forward to your testimony.

 STATEMENT OF DR. DALE CARRISON, EMERGENCY DEPARTMENT MEDICAL 
       DIRECTOR, UNIVERSITY MEDICAL CENTER, TRAUMA CENTER

    Dr. Carrison. Thank you, Congressman Gibbons, it's a 
privilege to be here. I appreciate you having us here, and I 
think it is extremely important.
    You have my document for submission in the record. I will 
address some issues in that and make some extemporaneous 
comments based on what I heard here today.
    I am proud to represent University Medical Center, the only 
public hospital in Southern Nevada and the only level-one 
trauma center in the State of Nevada. We have been fortunate 
that we've had incidents with regards to weapons of mass 
destruction that occurred at our hospital, and we have learned 
from those.
    The first two incidents were prior to September 11th. We 
had an incident when an anthrax exposure came into the 
hospital. At that time we had post-incident debriefing, which 
involved essentially the emergency department, the agency that 
brought the alleged victim of anthrax infection in. We learned 
from that. It was not what I would call an ideal debriefing.
    We had a second incident in the community where there was a 
sarin gas threat of a person who had taken over a facility and 
threatened that they had sarin gas. We were able to respond to 
that with the help of Nellis Air Force Base. We were able to 
obtain the medications that would have been necessary to 
address this had there, in fact, been sarin gas.
    We had a much better post-incident debriefing on that 
incident. We were able to establish some policies and 
procedures that would assist us if that occurred in the future.
    But I think at that point reality had not really set in. 
Reality set in as of 9-11. Since 9-11, we had an incident where 
an individual in the community manufactured some lysine and 
injected himself. That incident after 9-11 showed the hospital 
and community really had their heart in finding out what we 
could do to prevent casualties from these weapons of mass 
destruction similar to this biological chemical radiological.
    That incident, we had 20 agencies, 50 people. The post-
incident debriefing was outstanding. We went back to the 
hospital. Since that time, that gave us new life. After 9-11, 
of course, we started like everyone else to look at our systems 
and see what could be prepared better. We reviewed our policies 
and procedures, modified them. We have a committee, a WMD 
committee. We established an incident command. We have enhanced 
our security capabilities. We expanded the staff training just 
so that people know what these agents are and what their 
effects on. With ignorance, you can't have that because people 
become terrified.
    Our nursing, clerical, from the janitors to the clerks, 
everyone involved in the hospital, we've attempted to educate 
them on weapons of mass destruction, particularly biological 
that we would see in a hospital so everybody understands and 
that there is no mystery and they understand that it is a 
disease.
    With that, we expanded that decontamination plan. And just 
so I better address the EMS system so that the committee 
understands that I am EMS friendly. I'm a former deputy 
sheriff, Orange County, Southern California. I'm a former 
special agent of the FBI, and the current medical director for 
Clark County Fire Department, Medical Director for Mercy Air 
Helicopter, which provides the emergency helicopter services in 
the county, Medical Director for Lake Mead National 
Recreational Area, and I'm an active responder with the Las 
Vegas Metropolitan Police Department as a tactical position for 
the SWAT team. So I am EMS friendly and I have been a responder 
and I am a responder.
    Communications are extremely important. We have enhanced 
our internal communications. And as you respond, it's as you 
train. We have increased our training. I don't think it's 
enough yet, but we're working on that. Training takes resources 
as everything associated with this does.
    We have done a much better job of coordinating with local 
communities and working with the Clark County Health 
Department, the LEPC, Clark County Public Safety Coordination 
Team, the FBI, and local law enforcement terrorism. We have 
good communication with that now.
    Mr. Shepherd brought up a point that it's only as good as 
the weakest link. I have concerns that as a director of an 
emergency department and responsible for two other emergency 
departments in the community that we may be the weak link.
    Without allocation resources to the EMS community, first 
responders to law enforcement, I think we need to remember that 
the last link in that chain is the hospital. Without that link, 
our best efforts of first responders will bear no fruit. We 
won't save people. We won't be able to treat their injuries. It 
won't happen.
    And no offense to anyone, but the allocation of resources 
to the State of Nevada as the public hospital in Southern 
Nevada, University Medical Center for my WMD program, I 
received zero. Zip. Nothing. We want to be a link in that 
chain, but we want to be a strong link. We don't want to be the 
weak link.
    As everything, everyone wants, everyone wants more 
resources so they can do a better job at being prepared. I 
understand that. I understand the allocation and limitation of 
resources, but I would point out once again, that what we have 
are patients. Those people who are victims of a weapons of mass 
destruction event are going to the hospitals. They're going to 
come to us for treatment.
    We have--the Clark County Fire Department Hazmat is 
outstanding. They would be at an incident. What does my Hazmat 
do for decontamination at the hospital? I have the ability to 
decontaminate two people at a time. Past Federal rules indicate 
that the decontamination area should be within the walls of the 
hospital. We know now that is a great mistake. The last thing 
you want in a hospital emergency department is to bring a 
contaminated person within those walls because then you will 
set down the only patient emergency system that you have 
because the whole place would be contaminated, and that would 
be the end of that link in the chain.
    Extremely important to remember the hospital--extremely 
important that we remember our patients and our mission to our 
patients, and if we are not included in that first responder as 
the emergency responder that the patients are going to come to.
    The other part we don't address, you can't think of how 
many people are going to get in their cars when they think 
they've been exposed, and we saw this with the anthrax. We had 
people bringing letters into the emergency department that had 
a white powder. We have to address that from a security 
standpoint. We have to address that multiple people showing up 
that we can't allow into the emergency department from both a 
security point and from a decontamination point, so that the 
safety of those people who are providing the patient care is 
ensured.
    We also have to remember that because we have an incident 
of this sort, the other things that occur in our community are 
not going to stop. We are going to continue to have motor 
vehicle crashes. We are going to continue to have people with 
heart attacks. We are going to continue to have people that 
have respiratory illnesses that require emergent intervention. 
I can go on with that list of things.
    I can tell you that the system right now is stressed to the 
max. And if we had an incident, it could break that system.
    That was one consideration given for having a mobile 
hospital, something that we could set up immediately to provide 
the care for those people who may be contaminated and provide 
them a safe environment and a safe environment for those 
persons who are taking care of them.
    In closing, I appreciate, again. Being here. I will tell 
you that we are committed to staying ever vigilant in our 
efforts and to the best of our ability to respond to any 
disaster in our community.
    Thank you.
    Mr. Gibbons. Thank you very much, Doctor. You have brought 
some new information to light here with this committee and have 
raised a number of questions even in my mind that I'll talk to 
you about in a minute.
    [The statement of Dr. Carrison follows:]

                PREPARED STATEMENT OF DR. DALE CARRISON

 hospital emergency preparedness assessment, enhancements and planning

    As the only public hospital in Southern Nevada, University Medical 
Center of Southern Nevada (UMC) has been actively involved in emergency 
response planning for a number of years. After the tragic events of 
September 11, UMC initiated a number of analyses to help ensure its 
readiness to respond to a man-made or natural disaster. In particular, 
UMC conducted a hazardous vulnerability assessment to identify the 
range of hazards to which UMC could be called upon to respond. As a 
result of these analyses, UMC has identified some specific areas on 
which immediate efforts could be focused, given existing resources, to 
help increase UMC's readiness to respond in the event of a disaster in 
our community. Additional emergency response enhancement opportunities 
have also been identified for possible future implementation in the 
event that additional resources become available.
    The following is a list of the emergency response enhancements that 
have been implemented since September 11:
        1) Review and revision of emergency response policies and 
        procedures.
        2) Formation of weapons of mass destruction (WMD) committee.
        3) Establishment of an Incident Command System (ICS).
        4) Enhancement of security capabilities.
                a) Traditional personal safety and site security.
                b) ``Medical'' safety, contamination prevention.
                c) Coordination with local law enforcement agencies.
        5) Expansion of staff training on clinical and operational 
        emergency response.
        6) Establishment of decontamination plan.
        7) Establishment of clinical resource library.
        8) Enhancement of internal and external communications 
        equipment and systems.
        9) Expansion of in-house disaster planning drills.
        10) Coordination with all local emergency response agencies and 
        participation in emergency response drills.
                a) Local Emergency Planning Committee (LEPC)
                b) Clark County Public Safety Coordination Team
                c) Clark County Health District Incident Response
                d) FBI and Local Law Enforcement Terrorism Coordination
    With the implementation of these immediate enhancements, UMC has 
increased its readiness to respond in the event of a disaster in our 
community. In addition, UMC has identified other enhancement 
opportunities in the areas of equipment, supplies, capacity, planning 
and coordination that it is working to develop with existing and/or 
potential future resources. The following is a sample of the additional 
enhancements that have been identified for future emergency readiness:
        1) Enhance internal and external communication systems and 
        technology.
        2) Acquire additional personal protective equipment and 
        supplies.
        3) Increase emergency patient decontamination capacity.
        4) Increase emergency patient isolation capacity.
        5) Enhance security-related technology.
        6) Enhance training and education.
        7) Acquire additional clinical equipment.
        8) Enhance ICS capabilities.
        9) Acquire ``mobile hospital'' MASH-style capabilities.
        10)Enhance coordination with local, state and federal agencies 
        to help institute a uniform leadership policy in Southern 
        Nevada.
        11)Initiate coordination with FEMA regarding emergency 
        pharmaceutical distribution.
    Since September 11, a great deal of effort has been devoted to 
helping ensure UMC's readiness to respond to any type of disaster, man-
made or natural. As a result of our initial assessments, we have 
identified a number of immediate and long-term opportunities to enhance 
our ability to respond. While we have learned a great deal and 
instituted some successful enhancements, we realize that we have some 
future enhancements that would further increase our response 
capabilities, and potentially new challenges that may arise. It is with 
this in mind that we are committed to staying ever vigilant in our 
efforts to do the best of our ability to be ready to respond to any 
disaster in our community.

    Mr. Gibbons. Now, I'll turn it over to Mr. Bill Conger for 
your comment. Bill, welcome, and the floor is yours.

     STATEMENT OF MR. BILL CONGER, DEPUTY CHIEF, LAS VEGAS 
                 METROPOLITAN POLICE DEPARTMENT

    Mr. Conger. Mr. Chairman, I appreciate the opportunity to 
speak this morning. I'm substituting for Sheriff Young because 
he is unable to be with us today.
    The Las Vegas Metropolitan Police Department is the 
eleventh largest police department in the country with 4,300 
employees and jurisdictional responsibility of 7,800 square 
miles.
    We are responsible for all of unincorporated Clark County, 
which includes the Strip corridor, McCarran Airport, the sixth 
or seven busiest, depending on who you talk to, Nellis Air 
Force Base, Hoover Dam, portions of the Nevada Test Site, and 
all other outlying areas, including the population centers of 
Laughlin and Primm.
    Our jurisdiction also includes the City of Las Vegas. Most 
of the entertainment industry in Southern Nevada and 
approximately 1.2 million of the county's 1.6 million 
population and most of the 35 million visitors that visit our 
community each year are also our responsibility.
    Our local response community has long recognized the need 
for a regional approach to preparedness and response to any 
eventuality that could occur.
    This valley has a longstanding history of major events from 
the MGM/Hilton fires in the early 1980s, the PepCon explosion, 
and the yearly preparation for New Year's Eve, which is second 
only to New York in size and scope. These major events have 
created a viable emergency management community that has been 
in full swing for many years.
    The preparedness/response piece of the puzzle is a focus 
that is vital to the future of our community, but it is only a 
part of the total picture, especially in areas that are totally 
reliant on tourism, as we are, and the economic impact that its 
loss would incur. Because, without a doubt, our most important 
economy and a significant portion of the state's economy is 
based on discretionary spending from tourism and the 
entertainment industry. Any impact on those dollars would have 
a staggering effect both on the local economy and the State.
    When I speak about our community, I am speaking regionally, 
which includes the cities of Henderson, North Las Vegas, 
Boulder City, and Mesquite, because all the local governments 
recognize the impact of an event anywhere in this valley.
    This brings me to the focus of the Metropolitan Police 
Department in the fight against terrorism. Prevention of an act 
in our community is the most important issue we deal with on a 
daily basis. The fact that the economic life of our community 
is dependent on the discretionary dollars makes us vulnerable 
to those who would make our community unsafe for visitors. To 
put it bluntly, people won't vacation where they don't feel 
safe. Even the threat of an event could have a substantial 
impact.
    The national strategy includes the prevention of an act as 
a significant portion of its effort. Prevention from our 
perspective is twofold:
    Number one, the open and overt aspect of the policing 
function including partnerships within both the public and 
private sector and educating people on what to look for and 
where they can go with the information. We have created a 
preparedness document for the citizens of Clark County called 
``H.A.N.D.S.S.'' and partnered with the Sprint Telephone 
Company to get it printed in the phone book essentially got it 
out to 1.3 million copies in the local community. This gave 
citizens instructions on how to prepare for any diaster.
    We have created a Homeland Security Bureau and activated a 
hotline for citizens to call to report suspicious activity. All 
leads that come in on that hotline are investigated and either 
verified and passed on to the JTFF or defunked with no further 
investigation necessary. Open source information is collected 
daily, analyzed, and disseminated to both law enforcement and 
the public/private sector, especially if the information is a 
potential challenge for that particular group or industry.
    Communications operability and interoperability are 
significant issues that not only affect our community, but most 
other jurisdictions as well. Prevention of an act and the 
coordinated response to an act are linked to the ability for 
police and the rest of the first response community to 
communicate with each other.
    It is important to talk with other agencies and 
jurisdictions, but also a major challenge facing us currently 
is the inability for police officers to talk to each other 
inside buildings and in certain areas of town.
    The second side of prevention has to do with the covert 
aspect of what we as a police agency do with our Federal 
partners. After 9-11, our department moved very quickly to get 
security clearances for officers involved in the JTTF. Key 
administrative personnel were also given clearances in order to 
make decisions based on national security for determination of 
whether a mobilization may be necessary to prevent an event.
    Covert operations have long been a vital aspect of the 
police function. In today's environment with the potential for 
individuals to destroy the safety and security of our 
community, covert operations with Federal partnerships are 
necessary to protect our tourist lifeblood.
    I am reticent to discuss whether we are a target or 
vulnerable to terrorism in an open forum, but I know the local 
and Federal partnerships that have been created have gone a 
long way in ensuring the creation of an inhospitable 
environment for those who would cause our community harm.
    I want to thank you for giving the Metropolitan Police 
Department the opportunity to share our views on the vital 
mission of homeland security as it relates to Clark County and 
the southwest region.
    Mr. Gibbons. Thank you very much, Mr. Conger.
    [The statement of Mr. Conger follows:]

                 PREPARED STATEMENT OF MR. BILL CONGER

    Mr. Gibbons, members of Congress, my name is Bill Conger. am a 
Deputy Chief with the Las Vegas Metropolitan Police Department 
substituting for Sheriff Young who is unable to be with us today.

    The Las Vegas Metropolitan Police Department is the eleventh 
largest police department in the country with 4,300 employees and 
jurisdictional responsibility of approximately 7,800 square miles. We 
are responsible for all of unincorporated Clark County which includes 
Congressional Hearing, August 21, 2003 Testimony of Deputy Chief Bill 
Conger Las Vegas Metropolitan Police Department the Strip corridor, 
McCarran Airport (the sixth busiest airport in the nation), Nellis Air 
Force Base, Hoover Dam, portions of the Nevada Test Site, and all other 
outlying areas of the county, such as Laughlin and Primm. Our 
jurisdiction also includes the city of Las Vegas. Most of the 
entertainment industry in Southern Nevada and approximately 1.2 million 
of the county's 1.6 million population and most of the 35 million 
visitors that visit our community yearly are also our responsibility.

    Our local response community has long recognized the need for a 
regional approach to preparedness and response to any eventuality that 
could occur.

    This valley has a long-standing history of response to major events 
from the MGM/Hilton fires in the early 1980's, the PepCon explosion, 
and the yearly preparation for New Year's eve which is second only to 
New York City in size. These major events have created a viable 
emergency management community that has been in full swing for several 
years.

    The preparedness/response piece of this puzzle is a focus that is 
vital to the future of our community, but it is only a part of the 
total picture, especially in areas that are totally reliant on tourism 
and the economic impact its loss would incur. Because, without doubt, 
our most important economy and a significant portion of the state's 
economy is based on discretionary spending from the tourism, 
entertainment industry. Any impact on those dollars would have a 
staggering effect on both the local economy and the state.

    When I speak about our community, I am speaking regionally, which 
includes the cities of Henderson, North Las Vegas, Boulder City, and 
Mesquite, because all the local governments recognize the impact of an 
event anywhere in this valley.

    This brings me to the focus of the Metropolitan Police Department 
in the fight against terrorism. Prevention of an act in our community 
is the most important issue we deal with on a daily basis. The fact 
that the economic life of our community is dependent on discretionary 
dollars makes us vulnerable to those that would make our community 
unsafe for visitors. To put it bluntly, people won't vacation where 
they don't feel safe. The threat of an event could have a substantial 
impact.

    The national strategy includes the prevention of the act and is a 
significant portion of our effort. Prevention from our perspective is 
twofold:

    1. The open aspect of the policing function including partnerships 
within both the public and private sector and educating people on what 
to look for and where they can go with the information. We have created 
a preparedness document for the citizens of Clark County called 
``H.A.N.D.S.S.'' and partnered with Sprint Telephone to get it printed 
in the phone book. This gave citizens instructions on how to prepare 
for a disaster.

    We have created a Homeland Security Bureau and activated a hotline 
for citizens to call to report suspicious activity. All leads that come 
into our office are investigated and either verified and passed on to 
the JTTF or debunked with no further investigation necessary. Open 
source information is collected daily, analyzed, and disseminated to 
both law enforcement and the public/private sector, especially if the 
information is a potential challenge for that particular group or 
industry.

    Communications operability and interoperability are significant 
issues that not only affect our community, but most other jurisdictions 
as well. Prevention of an act and the coordinated response to an act 
are linked to the ability for police and the rest of the first response 
community to communicate with each other. It is important to talk to 
other agencies and jurisdictions, but a major challenge facing us 
currently is the inability of police officers to talk to each other 
inside buildings and in certain areas of town.

    2. The second side of prevention has to do with the covert aspect 
of what we as a police agency do with our federal partners. After 9-11, 
our department moved very quickly to get security clearances for 
officers involved in the JTTF. Key administrative personnel were also 
given security clearances in order to make decisions based on national 
security for determination of whether a mobilization may be necessary 
to prevent an event.

    Covert operations have long been a vital aspect of the police 
function. In today's environment with the potential for individuals to 
destroy the safety and security of our community, covert operations 
with federal partnerships are necessary to protect our tourist 
lifeblood. I am reticent to discuss whether we are a target of 
terrorism in an open forum, but I know the local and federal 
partnerships that have been created have gone a long way in ensuring 
the creation of an inhospitable environment for those that would cause 
ourcommunity harm.

    I want to thank you for giving the Metropolitan Police Department 
the opportunity to share our views on the vital mission of Homeland 
Security as it relates to Clark County and the southwest region.

    Mr. Gibbons. And to each of you, I'm sure you can tell by 
the tenor of your statements to the records that all is not 
quite as rosy as you might have heard from those people on the 
higher echelon in homeland security. That's one of reasons why 
we are here in this hearing is to have the differences, the 
gaps, the weakness of this chain, as Mr. Shepherd said, brought 
to light so that we in Congress can have an idea on how better 
to help you do your job.
    Let me begin by asking Mr. Conger--I know that your 
position, you have a great deal of day-to-day contact with the 
soldier who is down there in the trenches doing the battle on 
the streets fighting crime, drugs, and terrorism.
    Do you feel that your officers are as prepared as they can 
be to recognize needed indexes of terrorists and tactics of 
terrorism to be able to report back to you, which then can be 
shared vertically that information? Are they trained to look at 
those issues?
    Mr. Conger. I'm going to answer that this way, sir. We 
still have a long way to go. We have a department of 4,300 and 
we also have a large jurisdiction, and it doesn't just include 
our employees being prepared. It includes the first response 
community, the entire--requires the help of the citizens of 
Clark County, and it is our goal to get everybody prepared and 
everybody up to the level that they need to be, that if they 
see something suspicious, they can give us that information 
knowing that we are going to take care of it.
    Are we there yet? No.
    Are we as prepared as any community in the United States to 
respond to any eventuality? Yes, with some caveats, and those 
caveats being we have to overcome a person's innate fear of the 
word ``weapon of mass destruction,'' of the word ``it's 
radiologic,'' or of the word, ``it's biologic.'' And we need to 
be able to create an environment that the first responders and 
the citizens don't go into a panic when those issues raise 
their head.
    I was the incident commander on the lycine incident in 
Clark County. The call that I received at two o'clock in the 
morning was, ``Chief, we have a lycine exposure, we have two 
emergency rooms closed, we have several officers exposed,'' et 
cetera. It brought this community to the forefront on the 
response aspect of this very quickly.
    Did we make mistakes? Yes.
    Are we going to do it better next time. And as Dr. Carrison 
talked about, working as a partnership is what is most 
important to this community. In that lycine incident after 
about three hours, we knew that it was a horrible public 
relations nightmare for this community. So we needed to get 
that information out as fast as we could that this was not a 
terrorist event, it was an individual act.
    Did I answer your question, sir?
    Mr. Gibbons. Very well.
    Mr. Conger. Thank you.
    Mr. Gibbons. And it's nice to know that you're making a 
difference and that we are better prepared today than we were 
yesterday for events that reflect terrorism. As you indicated, 
prevention is the number one goal. Being a first responder says 
that somehow we didn't bat 1000. We are now responding to 
something. And, unfortunately, there's no luxury of batting 
1000 in this world. You have to do the best you can. 
Unfortunately, you are not in baseball. If you're batting even 
500 in baseball, you would be paid millions and millions of 
dollars. But if you're batting 500 in defending this country, 
defending the citizens, you're basically at risk for being 
criticized.
    And what I want to say is that I hope our police forces, 
our Metro and first responders, aren't handcuffed by risk 
aversion considerations. In other words, there's so many 
political and sociological forces that drive us today that we 
are risk averse. We're afraid of being sued. Unfortunately, 
sometimes that can have a dramatic effect on how we view the 
overall picture.
    It's something that I don't know how to address, and 
perhaps you can address it as you work through these issues, 
but it's something that does concern me.
    Thank you for your comments. They have been great, and I 
really appreciate it.
    Dr. Carrison, is UMC part of the overall county picture 
that goes to the State, as we heard Jerry Bussell talk about 
earlier, to decide how that in the last three or four months 
$25 million that have come to the State and shared 20 percent 
to the State, 80 percent to counties and cities, are you part 
of that decision process? Are you involved in that?
    I'm concerned if you say you get zero, and we understand 
the risks you just described.
    Dr. Carrison. I'm concerned also because that's the first 
time I've heard those figures. I'd have to defer that to acting 
CEO, Mike Walsh is here. I can tell you as the director of the 
emergency department and actively involved in medical staff and 
medical executive committee of the hospital, no.
    Mr. Gibbons. You've never heard of--.
    Dr. Carrison. Never heard of the process and having been 
involved.
    Mr. Gibbons. That means that there's somehow a breakdown in 
the communication on the county side because the counties are 
involved, obviously from the county perspective, we were told 
there are 17 representatives, one for each county, as to the 
body that makes the decisions about how this money is to be 
allocated, resources provided is going to be divided up.
    Dr. Carrison. The one thing that someone might say is we 
are a county-supported hospital. If that's the only county 
hospital, we're court of last resort for those people who don't 
have resources to go elsewhere for good medical care or for any 
medical care.
    Mr. Gibbons. And you are probably going to be the court of 
first response when it comes to finding something biological or 
other attack that comes in because you have to treat 
individuals that are to be--.
    Dr. Carrison. Individual--
    Mr. Gibbons. Treat--.
    Dr. Carrison. And the teaching hospital, we have those 
resources with regard to what some of the research that is 
being done, number one trauma center, we are talking about 
explosive type injuries.
    Mr. Gibbons. Perhaps you could do me a favor because I 
realize that is a Federal level we're talking about on this 
committee, but this is an issue for county officials and county 
hospital, if you talk to the county and find out what the 
answer is to that question and respond back to me. I would like 
to know just for my own satisfaction. I'm sure there's a lot 
people out there that would like to know why the county is--
major hospital, the county hospital in this community gets zero 
dollars out of that first responder money.
    Dr. Carrison. I understand that. I think we also have to 
consider--I don't want be cavalier on this or give the wrong 
impression, but I think we have to consider that we have a 
hospital that was losing lots of money since 9-11 because of 
the number of indigents or patients without resources increased 
dramatically. We required increased subsidy from the county. We 
are receiving a subsidy from the county, and the county 
manager, Mr. Wiley, is--I've worked with him, I spoke with him. 
He's done an excellent job. Mr. Walsh is stepping in as the 
acting CEO, and his staff are doing an excellent job addressing 
our shortfalls and they've reduced that. But that may be a 
consideration in the funds.
    But, again, that's operating costs versus costs that we are 
looking at to give us the equipment necessary to be that link 
in the first responder chain if we have a WMD incident.
    Mr. Gibbons. Well, in any event, if you can find an answer 
in that determination and share that with us, we would be very 
interested. Because I'm sure it is not a unique problem to Las 
Vegas. I think this has got widespread problematic concerns and 
much broader applications than just what you indicated.
    Dr. Carrison. Even if I were to say a comment for all 
hospitals and particular emergency departments and emergency 
personnel, physicians that staff those hospitals, it is a 
problem throughout the United States, and, again, we're 
establishing an excellent infrastructure from the Federal level 
going down to the State level and then into the county levels, 
but the problem is the hospital is still there. In some areas 
it's only private hospitals that have that, but they are still 
going to be the ones that take care of our citizens and our 
patients, then they cannot be overlooked because the system 
will break if that happens.
    Mr. Gibbons. I think people for all good reasons anticipate 
that the hospital will be there and capable of taking care of 
any illness that they have because you have done a great job in 
the past, and you've always been there for them, you will 
always be there in future, and we may be making an assumption 
that shouldn't be made.
    Dr. Carrison. I believe it is an assumption that absolutely 
should not be made. Because in most places of the United States 
now, if you look at the emergency visits and how they have 
increased and the number of hospitals that have closed, the 
system is really stretched to the max right now. If something 
happened, major incident in any number of places, the hospitals 
are going to be completely overwhelmed, completely 
overstressed. And, you know, we need part of that allocation of 
resources and with particularly the training and the knowledge 
that go with that to be able to be that final link in the 
chain.
    Mr. Gibbons. I have a number of questions that I've love to 
engage with you in, including some ideas about how you create a 
list of doctors and health care providers from around the State 
that can respond and how do we get that coordinated and how do 
we work on an emergency list that is--.
    Dr. Carrison. What's actually doing a decent job on that is 
association with FEMA through the fire department and the FEMA. 
We have done much with local coordination with them, because, 
as you know or probably know, with the event of a chemical 
biological incident, we have to depend on FEMA because the 
medical resources with regard to pharmaceuticals in our 
community would be overwhelming without FEMA bringing those in. 
So that coordination is going on. There are physicians 
associated with that.
    I think that part of it is much better than it was, but, 
unfortunately, I still see people having meetings. I was able 
to be included on the planning session for operation determined 
promise, but the physician that is there today is there with 
Clark County Health District. I think we have to remember, 
again, I hate to be redundant, but we still have to remember 
that the role the hospitals play in that first responder 
situation.
    Mr. Gibbons. And I think that's part of the whole process 
of this determined promise exercise that is going through right 
now out in Mesquite or Logandale about health care issues.
    Doctor, let me go over to Mr. Walker and ask him a question 
because I know that aviation is absolutely unique. It's unique 
in its whole character. There is no industry that is like it 
from the standpoint of how it provides the basis for an economy 
such as Las Vegas.
    I know that many times Congress does things in an effort to 
bring about some assurances to the public that we are taking 
steps to ensure their safety. Of course, the December 31st 
deadline for 100 percent baggage screening, 100 percent 
passenger screening that was required by us oftentimes didn't 
consider the reality that those machines hadn't been built and 
couldn't be built by December 31st.
    My question would be to you: Knowing the strategies of a 
layered defense and knowing the risk that airports have 
throughout the Nation, not necessarily Las Vegas, but all 
airports throughout, where should the first layer of security 
be at an airport?
    Should it be before they ever get to the grounds of the 
airport? Should it be on the airport premises? Should it be in 
the ticketing and baggage screening area? Where should that 
first layer is?
    Mr. Walker. Our goal is the Federal intelligence and the 
local intelligence will sniff out any plots and prevent them.
    Mr. Gibbons. That is my goal as well, too, and it's 
something I'm working on.
    Mr. Walker. But if that doesn't happen, then I've heard--
we've gone through at one time--when we talked about whole 
masses of people in the terminal, somebody had the brilliant 
idea that we can't let anybody come to the terminal. We better 
have a processing center away from the airport that doesn't 
blow up.
    But the question was then you have to build holding 
buildings somewhere else and have all the people standing 
there, and that's the building they'll blow up. So at some 
point in time, you have to understand that you can have a lot 
of people come somewhere, you're going to have a lot of people.
    So I think given the way the airport operates, the way that 
the bags and the people are being screened, at the airport, I 
think, is the right location. And then we set up a lot of 
layers in there, a lot of them we don't tell everybody what 
they are in order to enhance them.
    There are airports--one of the things we've done, of 
course, is put a lot of cameras in the security checkpoints to 
record everything. If an incident happens, we have very--it's 
all digital. We have very instantaneous information about what 
happened at the checkpoint.
    We've also put in a lot of automatic doors that are tied to 
the checkpoints, so if the emergency button is pushed, 
basically seal off sections of the airport so that two things 
happen. One is whoever has penetrated the security 
inappropriately can't get too far into the system. And, 
secondly, if there becomes a situation where we have to empty 
the terminal, we only have to empty part of a terminal instead 
of the full terminal, which enhances our customer service. So 
we are looking at all of those kind of things to help secure 
it.
    I think the biggest area that I would be concerned about as 
the director of an aviation system that I don't think Congress 
has spent enough time addressing, and that is the whole 
noncommercial aviation, the whole general aviation.
    You know, we have close to 500,000 operations in McCarran 
annually. About 32 percent of those are not commercial 
aircraft. Some of those aircraft are very large. There are 
Boeing business jets which are as large as 737. And we have G-
5s and other significant sized airplanes that come in and out 
of our airport that go through very little security. We don't 
know where they come from when they get here. We don't know 
what kind of security they have had at the other side.
    And the whole security at that side of the field is much 
less than it is at the passenger side, yet, those airplanes are 
fairly large. And if someone were able to take command of one 
of those airplanes and get full control of it, I think we could 
have a serious problem. So I think that needs to be looked at 
in the future.
    General aviation at small airports is also a concern, but 
those aircraft tend to be a little smaller. So if I were 
looking at the biggest threat, I would look at larger airports 
and the type of business aircraft that come in in the larger 
size. But I think that is a concern from my perspective.
    Mr. Gibbons. Well, I know that your concern that you just 
alluded to, the private sector aircraft, has been one which the 
Federal Government has looked at with regard to security of 
many of the nuclear power plants because there was a 
theoretical prospect that some private aircraft loaded with 
some type of explosive would be used to crash into a nuclear 
power plant causing an enormous disaster. So that's an issue 
that they are looking into on the Federal level right now.
    Mr. Walker. When we talk about general aviation, most 
people think of small private planes, but general aviation 
actually includes anything from a Boeing business jet, which is 
very large, down to a single engine propeller airplane. So I 
think maybe there has to be some categories of different sizes 
of aircraft and what kind of security you might have based on 
the potential threat to the size of an aircraft being posed if 
it were taken over by people with some ill intent.
    Mr. Gibbons. Mr. Shepherd, I'm sorry we left you to the 
last. You provided your testimony first. It was enlightening to 
say the least. I heard Mr. Conger talking about H.A.N.D.S.S. 
program, H-A-N-D-S-S, sharing of information or creating and 
establishing an informational net is provided in telephone 
books.
    Do hotels like the Venetian give information like that to 
their tourists when they arrive?
    Mr. Shepherd. Pretty much when they ask. We try to have 
more of appearance of security they'll see when they come in 
with the armed checkpoints as they come on the property, where 
the officers will meet them when they come in. That's how we 
end up doing it most of the time.
    Mr. Gibbons. From your experience, I'm sure the Venetian is 
much like any other infrastructure sensitive industry, whether 
it's the power and gas company, whether it's the 
communications, whether it's a hotel, motel, or whether it's 
trucking industry.
    When you do your risk assessment for vulnerabilities inside 
your structure, do you work with the local police, local fire 
departments when you look at that and made some coordinated 
effort with them to determine what the best recourse would be 
for an incident that occurred in your hotel?
    Mr. Shepherd. Sir, that's correct. We use all kinds of 
different sources, whether it be law enforcement, private 
vendors, or threat assessment people, as well as people on our 
staff that are from other countries as well. We look at it from 
all sides again trying to stop any threat, whether it be a 
terrorism threat.
    Our emergency command center, for an example, we have set 
up in three different way. We set it up for terrorism, we set 
it up for life safety, and we also set it for a natural 
disaster be it an earthquake.
    Mr. Gibbons. Finally, Mr. Congers, my last question, 
because we are out of time, we were required to vacate this 
room by one o'clock, and it's little after, the program that I 
just talked about that you created that you put in the phone 
books for advising tourists, is that shared outside of the 
Clark County? Is it shared in other counties in the State of 
Nevada, other communities? Is it shared nationally or 
internationally? It seems like it is a creative program that 
you made and one which has a great deal of merit to it.
    Mr. Conger. Actually the genesis of the project was from 
the FEMA preparedness handbooks that had been around for a long 
time. After 9-11, people became very cognizant of potential 
danger and potential manmade disaster and started calling and 
asking questions, ``What do we do? How do we do it? Who do we 
notify? Where do we go? What happens if we have an event? Do we 
shelter in place? Do we evacuate?'' That type of stuff.
    We had a very creative person on our department that came 
forward with this during Sheriff Keller's tenure last year, and 
we carried it forward, partnered with Sprint Telephone, 
including 1.3 million phone books.
    We have disseminated this to all major cities and major 
cities chiefs association. The Sheriff, when he goes to those, 
he disseminates H.A.N.D.S.S. handbook, and he also disseminates 
a disk.
    The challenge that we had initially was not producing the 
document, it was getting it disseminated. That's where the 
actual costs are involved with the document. It was going to 
cost the department 600 to 800 to a million dollars to get it 
produced and distributed to people.
    When Sprint Telephone came forward and offered that it went 
in the phone book, and it was minimal, we were able to provide 
for essentially everybody in the community. If we send a 
document to each address in the phone book or--excuse me--each 
address on the mailing list, the MGM Hotel would get one, the 
Venetian Hotel would get one, et cetera. By doing it in the 
phone book, each phone, each room in every hotel room in Las 
Vegas has a phone book, and they have access to that.
    The biggest challenge we have now is getting the 
information to the tourists that that is there, ``If we have an 
incident, look in the book. It's in the first part of the 
January phone book.'' And we intend to carry forward with this 
and get it further into the communities as we go forward.
    Mr. Gibbons. Gentlemen, I know that we have run out of 
time. And there's many, many questions that I have just sitting 
here on my mind wishing to ask you, but we are out of time. I 
want to thank you for your patience. I want to thank you for 
your presence and your testimony here today.
    If you wouldn't mind, just as with any other members of the 
previous panel, we oftentimes will write questions and submit 
them to you, if you wouldn't mind giving us an answer to some 
of those questions. Maybe the questions will be generated out 
of the testimony that you have presented to us today.
    We would appreciate it if you would respond to our 
questions so that we can add that information to the 
congressional hearing today.
    With that, I want to thank you again. I want to thank the 
audience for being out there as patient as they have been, and 
let them know that they also can submit a statement that will 
be included in the record if they so choose. That has to be 
submitted to us within 14 days of this hearing. So if you are 
of a mind to do that and want to add your thoughts to the 
congressional record on this hearing, please remember the time 
lines and that it has to be sent to us at the congressional 
committee which is in Washington, D.C. for Homeland Security.
    With that, I'm going to close this hearing and excuse our 
panels for today. Thank you very much again. And this hearing 
is now closed.
    [Whereupon, the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
